APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of
Appeals for the Ninth Circuit, Ramirez
v. TransUnion LLC, No. 17-17244
(Feb. 27, 2020) ............................................. App-1
Appendix B
Order, United States Court of Appeals
for
the
Ninth
Circuit,
Ramirez
v. TransUnion LLC, No. 17-17244
(Apr. 8, 2020) ............................................. App-59
Appendix C
Order, United States District Court for
the Northern District of California,
Ramirez v. TransUnion LLC, No. 12-cv00632-JSC (Nov. 7, 2017) .......................... App-61
Appendix D
Relevant Constitutional and Statutory
Provisions and Federal Rule ..................... App-91
U.S. Const. art. III, §§1-2 ................... App-91
U.S. Const. amend. XIV, §1 ............... App-92
15 U.S.C. §1681e ................................ App-92
15 U.S.C. §1681g ................................ App-96
15 U.S.C. §1681n .............................. App-117
Fed. R. Civ. P. 23 .............................. App-118

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 17-17244
________________
SERGIO L. RAMIREZ,
v.

Plaintiff-Appellee,

TRANSUNION LLC,
Defendant-Appellant.
________________
Argued: Feb. 14, 2019
Filed: Feb. 27, 2020
________________
Before: M. Margaret McKeown, William A. Fletcher,
and Mary H. Murguia, Circuit Judges.
________________
OPINION
________________
MURGUIA, Circuit Judge:
This case asks us to resolve whether a class of
consumers may sue and recover damages from a credit
reporting agency pursuant to the Fair Credit
Reporting Act (“FCRA”), where the agency—aware
that its practice was unlawful—incorrectly placed
terrorist alerts on the front page of the consumers’
credit reports and subsequently sent the consumers

App-2
confusing and incomplete information about the alerts
and how to get them removed.
The United States Department of the Treasury’s
Office of Foreign Assets Control (“OFAC”) maintains a
list of Specially Designated Nationals (“SDNs”), i.e.,
individuals who are prohibited from transacting
business in the United States for national security
reasons. Because merchants who transact with an
SDN can face harsh fines, TransUnion LLC
(“TransUnion”), one of the three largest credit
reporting agencies, saw a business opportunity in
developing a product for its clients that “matched”
consumers’ names to individuals on the OFAC list.
In
producing
these
purported
matches,
TransUnion coordinated with a third-party vendor
and used a software that conducted basic first-andlast-name searches—despite having the capability to
conduct more accurate searches and despite having
been put on notice by another circuit court in 2010
that this practice violated the FCRA. As a result,
TransUnion inaccurately added OFAC alerts to the
front page of the credit reports of thousands of
consumers. When consumers began discovering the
alerts and trying to have them removed, TransUnion
both sent them confusing information falsely
suggesting that the alerts had been removed and
withheld information about how to dispute the alerts.
TransUnion’s practice triggered significant concern
among affected consumers, such that a number of
them contacted the Department of the Treasury
directly to inquire about the terrorist labels.
The consumers brought this class action against
TransUnion pursuant to the FCRA, and a jury

App-3
assessed $60 million in damages for three willful
violations of the statute. In this appeal, TransUnion
claims that the verdict cannot stand because only
Sergio Ramirez, the representative plaintiff, suffered
a concrete and particularized injury as a result of
TransUnion’s unlawful practice. According to
TransUnion, the other thousands of class members
whose credit reports contained the inaccurate terrorist
alerts and received the confusing and incomplete
mailings did not suffer the irreducible constitutional
minimum showing of harm that Article III standing
requires. Ramirez, on the other hand, argues that the
class members do not need to demonstrate standing at
all because, in a class action, only the representative
plaintiff must have standing. The issue of who must
show standing in a class action at the final stage of a
damages suit is a question of first impression in this
circuit.
For the reasons explained below, we hold that
every member of a class certified under Rule 23 must
satisfy the basic requirements of Article III standing
at the final stage of a money damages suit when class
members are to be awarded individual monetary
damages. 1 Therefore, the dispositive question in this
case is whether each of the 8,185 class members had
standing on each of the class claims. We conclude that
they did. We also reject TransUnion’s arguments
regarding the sufficiency of the evidence, Rule 23
certification, and statutory damages. However, we
hold that the punitive damages award is excessive in
1 Our holding does not alter the showing required at the class
certification stage or other early stages of a case, and it does not
apply to cases involving only injunctive relief.

App-4
violation of constitutional due process. We reduce the
punitive-damages award from $6,353.08 per class
member to $3,936.88 per class member, but otherwise
affirm the verdict and judgment.
I.

Background

A. Factual History

In February 2011, Sergio Ramirez went to a
Nissan car dealership with his wife and father-in-law
to purchase a car. After the Ramirezes selected a car
and negotiated the terms, the dealership ran a joint
credit check on Ramirez and his wife. But once the
dealership obtained the credit reports, the salesman
told Ramirez that Nissan would not sell the car to
Ramirez because he was on “a terrorist list.”
The credit report had been prepared by
TransUnion, one of the nation’s three largest
consumer reporting agencies (“CRA”). The report
contained the following statement on the first page:
“***OFAC ADVISOR ALERT - INPUT NAME
MATCHES NAME ON THE OFAC DATABASE[.]”
The report also listed the names and birthdates of the
two prohibited Specially Designated Nationals who
purportedly “matched” Ramirez: Sergio Humberto
Ramirez Aguirre (born 11/22/1951) and Sergio Alberto
Cedula Ramirez Rivera (born 01/14/196*). The report
indicated that Ramirez’s middle initial was “L” and his
birth year was 1976.
The salesman refused to take further steps to
verify whether Ramirez was in fact on the OFAC list.
He also refused to provide Ramirez a copy of his credit
report, instead recommending to Ramirez that he
contact TransUnion directly. Eventually, however, the
salesman agreed to sell the car to Ramirez’s wife.

App-5
Ramirez’s wife completed a credit application on her
own behalf, and, after another hour, she was able to
purchase the car.
Ramirez testified that he was embarrassed,
shocked, and scared when he learned his name was on
a terrorist watch list. Ramirez was also disappointed
and embarrassed that he was unable to purchase the
car because he and his wife always made major
purchases jointly. Confused and not knowing what to
do, Ramirez began researching what the alert meant
and how to have it removed. Ramirez first called the
Department of the Treasury, but they advised him
that he would need to contact TransUnion. When
Ramirez called TransUnion, he was repeatedly told
that there was no OFAC alert on his credit report.
Ultimately, Ramirez requested a copy of his credit
report so he could verify whether it contained an
OFAC alert.
On February 28, 2011, TransUnion sent Ramirez
a copy of his credit report. The first page of the mailing
stated:
Enclosed is the TransUnion Personal Credit
Report that you requested. As a trusted
leader in the consumer credit information
industry, TransUnion takes the accuracy of
your credit information very seriously. We
are committed to providing the complete and
reliable credit information that you need to
participate in everyday transactions and
purchases.
If you believe an item of information to be
incomplete or inaccurate, please alert us
immediately. We will investigate the data

App-6
and notify you of the results of our
investigation.
The remainder of the page included information about
and instructions for an online request for
investigation. The following pages contained a copy of
Ramirez’s credit report, information regarding how to
dispute inaccurate information, and a “Summary of
Rights” under the FCRA. The credit report contained
no mention of OFAC. Ramirez was confused by the
report’s lack of any information regarding OFAC, but
he thought perhaps the problem had been resolved.
The next day, on March 1, 2011, TransUnion sent
Ramirez a separate letter (the “OFAC Letter”). The
OFAC Letter stated:
Thank you for contacting TransUnion. Our
goal is to maintain complete and accurate
information on consumer credit reports.
Our records show that you recently requested
a disclosure of your TransUnion credit report.
That report has been mailed to you
separately. As a courtesy to you, we also want
to make you aware that the name that
appears on your TransUnion credit file
“SERGIO L RAMIREZ” is considered a
potential match to information listed on the
United States Department of Treasury’s
Office of Foreign Asset Control (“OFAC”)
Database.
The OFAC Database contains a list of
individuals and entities that are prohibited
by the U.S. Department of Treasury from
doing business in or with the United States.
Financial institutions are required to check

App-7
customers’ names against the OFAC
Database, and if a potential name match is
found, to verify whether their potential
customer is the person on the OFAC
Database. For this reason, some financial
institutions may ask for your date of birth, or
they may ask to a see a copy of a governmentissued form of identification . . . . Some
financial institutions will search names
against this database themselves, or they
may ask another company, such as
TransUnion, to do so on their behalf. We want
you to know that this information may be
provided to such authorized parties.
The OFAC record that is considered a
potential match to the name on your credit
file is:
[OFAC records for the two prohibited SDNs
who purportedly matched Ramirez, which
include first, middle, and last names, dates of
birth, and passport information]
For more details regarding the OFAC
Database, please visit [the U.S. Department
of the Treasury’s website].
If you have additional questions or concerns,
you can contact TransUnion at [phone
number and mailing address].
Unlike the credit-report mailing, there was no
summary-of-rights form attached to the OFAC Letter.
Ramirez testified that he was confused by the two
mailings. The lack of any OFAC information in the
credit-report mailing suggested the alert had been

App-8
removed, but the OFAC Letter mailing suggested
otherwise. Ramirez also did not know how to remedy
the issue because the OFAC Letter did not include
instructions for initiating a dispute. Concerned about
possible consequences of the OFAC match, Ramirez
canceled an international vacation he had planned
with his family.
Finally, Ramirez consulted with a lawyer and, at
the lawyer’s advice, wrote a letter to TransUnion in
March 2011 requesting that the OFAC alert be
removed from his report. TransUnion responded in
writing that the alert had been removed.
Ramirez was not the only consumer who
TransUnion incorrectly labeled as a prohibited SDN.
TransUnion sent the same OFAC Letter to 8,184 other
consumers who also requested copies of their credit
reports between January 2011 and July 2011. In
February 2012, Ramirez sued TransUnion on behalf of
himself and the 8,184 other consumers who were
falsely labeled as prohibited SDNs. Ramirez alleged
that TransUnion violated the FCRA by placing the
false OFAC alerts on their credit reports and later
sending misleading and incomplete disclosures about
the alerts.
B. TransUnion’s “OFAC Advisor” Product
The class’s claims trace back to TransUnion’s
launch of a new product in 2002 and its erroneous
belief that the new product was exempt from the
FCRA. TransUnion saw a business opportunity
because its clients—who purchase consumer credit
reports from TransUnion because they are deciding
whether to offer credit to consumers—are legally
obligated to ensure they are not offering credit to a

App-9
prohibited SDN appearing on the OFAC list.
TransUnion therefore developed a product it called
“OFAC Advisor,” which added an alert to a consumer’s
credit report indicating whether the consumer was a
prohibited SDN on the OFAC list.
TransUnion obtained the information about
whether consumers were OFAC matches from a thirdparty company, Accuity, Inc. Accuity’s software
conducted a “name-only” search, running a consumer’s
first and last name against the names on the OFAC
list. A search would result in a match if the consumer’s
first and last name were either identical or similar to
a name on the OFAC list (e.g., “Cortez” would match
with “Cortes”). 2
When TransUnion first began offering the OFAC
Advisor product, it determined that the OFAC alerts
being placed on consumer credit reports were exempt
from the FCRA, including the FCRA’s requirement
that TransUnion “follow reasonable procedures to
assure maximum possible accuracy of the
information” it placed on consumer credit reports. 15
U.S.C.
§ 1681e(b).
Specifically,
TransUnion
determined the OFAC alerts were not governed by the
FCRA because the OFAC list was not stored in
TransUnion’s database; the data was stored in a
separate file and software supplied by TransUnion’s
third-party vendor, Accuity. Therefore, TransUnion
2 In collecting other types of data for use on consumer reports—
such as tax liens or bankruptcy judgments—TransUnion used at
least one additional identifier other than the consumer’s name
(e.g., address, date of birth, or social security number). OFAC
information was the only consumer-report data that TransUnion
collected using name alone.

App-10
did not follow its normal procedures to ensure
accuracy.
TransUnion also adopted a policy of not disclosing
OFAC matches to affected consumers when the
consumers requested a copy of their credit reports.
Although TransUnion received a number of consumer
complaints after it launched OFAC Advisor and
adopted these policies, TransUnion remained mostly
unscathed for these practices until 2005 when a
consumer sued.
C. The Cortez Litigation
In 2005, Sandra Cortez, a consumer, sued
TransUnion in the Eastern District of Pennsylvania
under circumstances similar to Ramirez’s. See Cortez
v. Trans Union, LLC, 617 F.3d 688, 696-706 (3d Cir.
2010). Cortez attempted to purchase a car but was
delayed for hours because TransUnion sent the car
dealership a credit report with a false OFAC alert on
it. Id. at 697-99. When Cortez attempted to resolve the
issue, TransUnion repeatedly told her that there was
no OFAC alert on her report and refused to investigate
or remove the alert. Id. at 699-700.
A jury found in Cortez’s favor on four FCRA
claims: (1) TransUnion negligently failed to follow
reasonable procedures to ensure maximum possible
accuracy in producing Cortez’s credit report, in
violation of 15 U.S.C. § 1681e(b); (2) TransUnion
willfully failed to provide Cortez all information in her
file despite her requests, in violation of § 1681g(a); (3)
TransUnion willfully failed to reinvestigate the OFAC
alert after Cortez informed TransUnion of the false
alert, in violation of § 1681i(a); and (4) TransUnion
willfully failed to note Cortez’s dispute on subsequent

App-11
reports, in violation of § 1681i(c). Id. at 705. The jury
awarded Cortez $50,000 in actual damages and
$750,000 in punitive damages. Id. The district court
remitted the punitive damages to $100,000, but
otherwise upheld the verdict. Id. at 705-06.
On appeal, TransUnion argued that OFAC
information was not covered by the FCRA because it
was not part of the “consumer report” as defined by
the statute. Id. at 706. 3 In August 2010, the Third
Circuit flatly rejected this argument, noting that it
was “difficult to imagine an inquiry more central to a
consumer’s ‘eligibility’ for credit than whether federal
law prohibits extending credit to that consumer in the
first instance.” Id. at 707-08 (quoting 15 U.S.C.
§ 1681a(d)(1)). The court upheld the jury’s verdict on
the reasonable procedures claim, explaining: “The jury
could reasonably conclude that [TransUnion] could
have taken steps to minimize the possibility that it
would erroneously place an OFAC alert on a credit
report, such as checking the birth date of the consumer
against the birth date of the person on the SDN List.”
Id. at 709.

Under the FCRA, a consumer report is defined as “any
written, oral, or other communication of any information by a
[CRA] bearing on a consumer’s credit worthiness, credit
standing, credit capacity, character, general reputation, personal
characteristics, or mode of living which is used or expected to be
used or collected in whole or in part for the purpose of serving as
a factor in establishing the consumer’s eligibility for” credit,
employment, or another purpose authorized by the statute. 15
U.S.C. § 1681a(d)(1).
3

We use the terms “consumer report” and “credit report”
interchangeably in this Opinion.

App-12
With respect to Cortez’s second claim, that
TransUnion willfully failed to disclose all of the
information in Cortez’s file when she requested it,
TransUnion argued that OFAC information was not
part of the consumer “file” because TransUnion did
not store OFAC information in its usual database;
rather, it contracted with Accuity to store the
information separately. Id. at 711. Again, the Third
Circuit emphatically rejected this argument: “We do
not believe that Congress intended to allow credit
reporting companies to escape the disclosure
requirement in § 1681a(g) by simply contracting with
a third party to store and maintain information that
would otherwise clearly be part of the consumer’s file
and is included in a credit report.” Id.
Finally, the court upheld Cortez’s reinvestigation
and dispute claims, and affirmed the district court’s
rulings as to damages. Id. at 712-24. However, the
court expressed concern over the district court’s
reduction of the punitive-damages award because “the
record certainly support[ed] a jury becoming ‘incensed’
over [TransUnion’s] ‘insensitivity’ to Cortez’s claim[.]”
Id. at 718 n.37.
D. TransUnion’s OFAC Practices After
the Cortez Litigation
After being slammed with an $800,000 jury
verdict (subsequently remitted to $150,000) in Cortez,
TransUnion made surprisingly few changes to its
practices regarding OFAC alerts. In November 2010,
TransUnion changed the language of the OFAC alert
used on credit reports. Instead of stating that a
consumer was a “match” to the OFAC list, the reports
would state that a consumer was a “potential match.”

App-13
TransUnion also made some adjustments to its
matching algorithm, including requiring an exact
match between first and last names, reducing the
false-positive rate from about 5 percent to about 0.5
percent. 4 TransUnion requested additional software
enhancements from Accuity, but these were not
implemented until 2013.
Within the timeframe of the Cortez litigation,
TransUnion received warnings about its OFAC
practices from officials at the Department of the
Treasury’s OFAC. In an October 2010 letter to
TransUnion, OFAC officials noted that they continued
to hear from TransUnion customers and individual
consumers who had been adversely affected by false
OFAC alerts on TransUnion credit reports. OFAC
officials expressed concern that a product “that does
not include rudimentary checks to avoid false positive
reporting can create more confusion than clarity and
cause harm to innocent consumers.” OFAC officials
were particularly worried by OFAC alerts being
“disseminated broadly in conjunction with credit
reports.”
As a result of these warnings from OFAC officials
and the Cortez litigation, TransUnion also changed
how it communicated with consumers about the OFAC
alerts on their credit reports. Beginning in January
2011, when consumers flagged as OFAC matches
requested copies of their credit reports, TransUnion
would send them two mailings: (1) the consumer’s
4 TransUnion presented no data showing that any of its name
matches through OFAC Advisor were correct. In other words,
TransUnion could not confirm that a single OFAC alert sold to
its customers was accurate.

App-14
credit report with the OFAC alert redacted, and (2) a
separately mailed OFAC Letter. The OFAC Letters
were sent within one day of the credit reports. These
letters were substantially similar to the one described
above that Ramirez received. TransUnion did not
include a summary-of-rights form in the mailings
containing the OFAC Letters. In July 2011,
TransUnion finally stopped sending OFAC Letters
and began including OFAC alerts directly on the
credit reports it sent to consumers.
E. Procedural History
In February 2012, Ramirez filed a putative class
action against TransUnion alleging that TransUnion’s
OFAC practices violated multiple provisions of the
FCRA. The district court certified a class action under
Rule 23 of the Federal Rules of Civil Procedure over
TransUnion’s objection and denied TransUnion’s
motion to decertify the class.
The class included “all natural persons in the
United States and its Territories to whom TransUnion
sent a letter similar in form to the March 1, 2011
[OFAC Letter] TransUnion sent to [Ramirez] . . . from
January 1, 2011-July 26, 2011.” In other words,
everyone in the class: (1) was falsely labeled by
TransUnion’s name-only software as a potential
OFAC match; (2) requested a copy of his or her credit
report from TransUnion; and (3) in response, received
a credit-report mailing with the OFAC alert redacted
and a separate OFAC Letter mailing with no
summary of rights.
Based on TransUnion’s records, the parties
stipulated that there were 8,185 consumers, including
Ramirez, who fell within this class. Out of those 8,185,

App-15
the records reflected that 1,853 had their credit
reports requested by a potential credit grantor during
the class period (January 2011 to July 2011).
TransUnion did not furnish credit reports to third
parties during the class period for the remaining 6,332
class members.
The case proceeded to a jury trial on three claims.
First, the class alleged that TransUnion willfully
failed to follow reasonable procedures to assure
accuracy of the OFAC alerts because TransUnion used
rudimentary name-only matching software without
any additional checks to avoid false positives. See 15
U.S.C. § 1681e(b). Second, the class alleged that
TransUnion willfully failed to disclose to the class
members their entire credit reports by excluding the
OFAC alerts from the reports. See id. § 1681g(a)(1).
Third, the class alleged that TransUnion willfully
failed to provide a summary of rights as required
under the FCRA when it sent consumers the OFAC
Letters. See id. § 1681g(c)(2).
The jury found in favor of the class on all three
claims and awarded each class member $984.22 in
statutory damages (about $8 million classwide) and
$6,353.08 in punitive damages (about $52 million
classwide). TransUnion filed a renewed motion for
judgment as a matter of law, and moved alternatively
for a new trial, remittitur, or an amended judgment,
all of which the district court denied. TransUnion
appealed, raising four arguments. We have
jurisdiction pursuant to 28 U.S.C. § 1291. We address
each argument in turn.

App-16
II. Article III Standing
TransUnion first argues that the verdict cannot
stand because none of the class members—other than
Ramirez—had standing under Article III of the United
States Constitution. We review the district court’s
rulings regarding standing de novo. Fair Hous. of
Marin v. Combs, 285 F.3d 899, 902 (9th Cir. 2002).
Standing is an “essential and unchanging part of
the case-or-controversy requirement of Article III.”
Lujan v. Defs. of Wildlife, 504 U.S. 555, 560 (1992).
The “irreducible constitutional minimum” of standing
requires a plaintiff to establish three elements: (1)
“the plaintiff must have suffered an ‘injury in fact’”
that is “concrete and particularized” and “actual or
imminent;” (2) “there must be a causal connection
between the injury and the conduct complained of;”
and (3) “it must be ‘likely,’ as opposed to merely
‘speculative,’ that the injury will be ‘redressed by a
favorable decision.’” Id. at 560-61 (citations omitted).
A. Who Needs Standing
The parties first dispute who must demonstrate
standing to recover damages—only the class
representative (i.e., only Ramirez) or every class
member. This Court has previously held that only the
representative plaintiff need allege standing at the
motion to dismiss and class certification stages, see In
re Zappos.com, Inc., 888 F.3d 1020, 1028 n.11 (9th Cir.
2018); Melendres v. Arpaio, 784 F.3d 1254, 1262 (9th
Cir. 2015), 5 and even at the final judgment stage in

5 See also Neale v. Volvo Cars of N. Am., 794 F.3d 353, 362 (3d
Cir. 2015) (holding that “unnamed, putative class members need

App-17
class actions involving only injunctive relief, see Bates
v. United Parcel Serv., Inc., 511 F.3d 974, 985 (9th Cir.
2007) (en banc); Casey v. Lewis, 4 F.3d 1516, 1519-20
(9th Cir. 1993). But we have never addressed the
question of who must have standing at the final stage
of a money damages suit when class members are to
be awarded individual monetary damages.
We address that question today and hold that
each member of a class certified under Rule 23 must
satisfy the bare minimum of Article III standing at the
final judgment stage of a class action in order to
recover monetary damages in federal court. Although
this is an issue of first impression for this Court, our
holding today clearly follows from Supreme Court
precedent, as well as the fundamental nature of our
judicial system. 6
not establish Article III standing” in damages action at class
certification stage).
Our holding does not apply to class actions involving only
injunctive relief. Nor does our holding alter the showing required
at the class certification stage or other early stages of a case. We
address only the circumstances of this case: court-awarded,
individual monetary awards for class members at the final
judgment stage of a class action. We note that, although the
standing inquiry in the early stages of a case focuses on the
representative plaintiffs, district courts and parties should keep
in mind that they will need a mechanism for identifying class
members who lack standing at the damages phase. See Torres v.
Mercer Canyons Inc., 835 F.3d 1125, 1137 (9th Cir. 2016)
(“[F]ortuitous non-injury to a subset of class members does not
necessarily defeat certification of the entire class, particularly as
the district court is well situated to winnow out those non-injured
members at the damages phase of the litigation, or to refine the
class definition.” (citing 1 W. Rubenstein, Newberg on Class
Actions § 2:3 (5th ed. 2019))).
6

App-18
The Supreme Court has held, albeit in a different
context, that all parties seeking to recover a monetary
award in their own name must show Article III
standing. See Town of Chester, N.Y. v. Laroe Estates,
Inc., 137 S. Ct. 1645, 1651 (2017) (holding that “an
intervenor of right” under Federal Rule of Civil
Procedure 24(a)(2) “must have Article III standing in
order to pursue relief that is different from that which
is sought by a party with standing[,]” including where
“both the plaintiff and the intervenor seek separate
money judgments in their own names.”); see also
Tyson Foods, Inc. v. Bouaphakeo, 136 S. Ct. 1036, 1053
(2016) (Roberts, C.J., concurring) (“Article III does not
give federal courts the power to order relief to any
uninjured plaintiff, class action or not. The Judiciary’s
role is limited ‘to provid[ing] relief to claimants, in
individual or class actions, who have suffered, or will
imminently suffer, actual harm.’” (quoting Lewis v.
Casey, 518 U.S. 343, 349 (1996))).
The same rule applies here. To hold otherwise
would directly contravene the Rules Enabling Act,
because it would transform the class action—a mere
procedural device—into a vehicle for individuals to
obtain money judgments in federal court even though
they could not show sufficient injury to recover those
judgments individually. See 28 U.S.C. § 2072(b)
(“[Rules of procedure] shall not abridge, enlarge or
modify any substantive right.”).
B. Merits of the Standing Inquiry
Having concluded that each class member must
have standing to recover damages, we turn to the
dispositive and more difficult question in this case:
Did each of the 8,185 class members have standing?

App-19
TransUnion challenges only the first standing
requirement—injury in fact. Because a “plaintiff must
demonstrate standing for each claim he seeks to
press,” DaimlerChrysler Corp. v. Cuno, 547 U.S. 332,
335 (2006), we address standing for each of the class’s
three claims. Plaintiffs bore the burden of proving
standing through evidence at trial. See Lujan, 504
U.S. at 561.
1.

Reasonable Procedures Claim

Under § 1681e(b) of the FCRA, “[w]henever a
[CRA] prepares a consumer report it shall follow
reasonable procedures to assure maximum possible
accuracy of the information concerning the individual
about whom the report relates.” 15 U.S.C. § 1681e(b).
The class’s first claim is that TransUnion willfully
failed to follow reasonable procedures to assure
maximum possible accuracy when it collected OFAC
information using rudimentary name-only searches
and placed the inaccurate information on the class
members’ credit reports without further verification.
TransUnion argues that, to have suffered a
concrete injury from the § 1681e(b) violation, each
class member must show that TransUnion disclosed
his or her credit report to a third party. In other words,
TransUnion argues no injury results from a false
OFAC alert until someone other than TransUnion and
the consumer sees it. For support, TransUnion relies
on the Supreme Court’s decision in Spokeo, Inc. v.
Robins (Spokeo II), 136 S. Ct. 1540 (2016).
Prior to Spokeo II, we held that the violation of a
“statutory right”—including an FCRA violation—”is
usually a sufficient injury in fact to confer standing”
without any showing of actual harm. See Robins v.

App-20
Spokeo, Inc. (Spokeo I), 742 F.3d 409, 412 (9th Cir.
2014), vacated and remanded, 136 S. Ct. 1540 (2016).
The Supreme Court granted certiorari and reversed,
explaining that “Congress cannot erase Article III’s
standing requirements by statutorily granting the
right to sue to a plaintiff who would not otherwise
have standing.” Spokeo II, 136 S. Ct. at 1547-48
(quoting Raines v. Byrd, 521 U.S. 811, 820 n.3 (1997)).
Rather, “Article III standing requires a concrete injury
even in the context of a statutory violation.” Id. at
1549.
The Supreme Court recognized, however, that an
injury may still be concrete even if intangible. Id. And
there is sufficient injury in fact when a defendant’s
statutory violation creates a “risk of real harm” to a
plaintiff’s concrete interest. Id. In determining
whether an intangible harm constitutes an injury in
fact, we look to historically recognized injuries and
Congress’s judgment. Id. We look to history to
determine “whether an alleged intangible harm has a
close relationship to a harm that has traditionally
been regarded as providing a basis for a lawsuit in
English or American courts.” Id. And we are guided by
Congress’s judgment because “Congress is well
positioned to identify intangible harms that meet
minimum Article III requirements[.]” Id.
Spokeo also involved a consumer’s claim against a
CRA under § 1681e(b). Robins, a consumer, alleged
that Spokeo, a CRA that operated a people-search
website, published a profile about him on its website
that contained inaccurate information regarding his
age, marital status, wealth, employment, and
education. Robins v. Spokeo, Inc. (Spokeo III), 867 F.3d

App-21
1108, 1111 (9th Cir. 2017). With respect to injury in
fact, Robins alleged that the presence of the false
information on Spokeo’s website “harmed his
employment prospects at a time when he was out of
work” and caused him emotional distress. Id.
The Supreme Court declined to decide whether
Robins sufficiently alleged a concrete injury, but it
provided the following guidance:
On the one hand, Congress plainly sought to
curb the dissemination of false information by
adopting procedures designed to decrease
that risk. On the other hand, Robins cannot
satisfy the demands of Article III by alleging
a bare procedural violation. A violation of one
of the FCRA’s procedural requirements may
result in no harm. For example, even if a
[CRA] fails to provide the required notice to a
user of the agency’s consumer information,
that information regardless may be entirely
accurate. In addition, not all inaccuracies
cause harm or present any material risk of
harm. An example that comes readily to mind
is an incorrect zip code. It is difficult to
imagine how the dissemination of an
incorrect zip code, without more, could work
any concrete harm.
Spokeo II, 136 S. Ct. at 1550.
On remand, we held that Robins alleged a
material risk of harm to his concrete interests
sufficient to satisfy Article III standing. Spokeo III,
867 F.3d at 1118. We adopted a two-part inquiry for
determining whether the violation of a statutory right
constitutes a concrete injury: “(1) whether the

App-22
statutory provisions at issue were established to
protect [the plaintiff’s] concrete interests (as opposed
to purely procedural rights), and if so, (2) whether the
specific procedural violations alleged . . . actually
harm, or present a material risk of harm to, such
interests.” Id. at 1113.
In Robins’s case, we held at step one that
§ 1681e(b) was enacted to protect consumers’ concrete
interests in avoiding the very real-world harms that
result from inaccurate credit reporting—such as the
inability to obtain credit and employment and “the
uncertainty and stress” that consumers experience
when they discover inaccurate information in their
credit reports. Id. at 1114. We noted that “the interests
that [the] FCRA protects also resemble other
reputational and privacy interests that have long been
protected in the law.” Id. At step two, we concluded
that Robins had been exposed to a material risk of
harm to that concrete interest because Spokeo
published inaccurate information on its website that
was far more material than a mere incorrect zip code.
Id. at 1116-17.
Applying the test to the facts of this case, we
conclude that all 8,185 class members suffered a
material risk of harm to their concrete interests
protected by § 1681e(b) as a result of TransUnion’s
failure to follow reasonable procedures to assure
maximum possible accuracy of OFAC information.
Step one is clear. Congress enacted the FCRA,
including § 1681e(b), “to protect consumers’ concrete
interests.” Id. at 1113. “[G]iven the ubiquity and
importance of consumer reports in modern life—in
employment decisions, in loan applications, in home

App-23
purchases,
and
much more—the
real-world
implications of material inaccuracies in those reports
seem patent on their face.” Id. at 1114. The FCRA’s
reasonable procedures requirement is particularly
important because the “threat to a consumer’s
livelihood is caused by the very existence of inaccurate
information in his credit report and the likelihood that
such information will be important to one of the many
entities who make use of such reports[.]” Id. at 1114;
see also 15 U.S.C. § 1681(a)(4) (explaining that
Congress enacted the FCRA “to insure that consumer
reporting
agencies
exercise
their
grave
responsibilities with fairness, impartiality, and a
respect for the consumer’s right to privacy”). “Courts
have long entertained causes of action to vindicate
intangible harms caused by certain untruthful
disclosures about individuals, and we respect
Congress’s judgment that a similar harm would result
from inaccurate credit reporting.” Spokeo III, 867 F.3d
at 1115.
At step two, standing is also clear for all class
members for a number of reasons. First, the nature of
the inaccuracy is severe. TransUnion inaccurately
identified and labeled all class members as potential
terrorists, drug traffickers, and other threats to
national security; it did not inaccurately report a zip
code or a minor discrepancy. As a result of its careless
procedures for identifying OFAC “matches,”
TransUnion sent all class members a letter informing
them that they were considered potential SDNs. This
practice ran a real risk of causing the uncertainty and
stress that Congress aimed to prevent in enacting the
FCRA. See Drew v. Equifax Info. Servs., LLC, 690 F.3d
1100, 1109 (9th Cir. 2012) (“The FCRA permits

App-24
‘recovery for emotional distress and humiliation.’”
(quoting Guimond v. Trans Union Credit Info. Co., 45
F.3d 1329, 1333 (9th Cir. 1995)).
In Spokeo III, we stated that it was “clear” that
the plaintiff was exposed to a material risk of harm
because a CRA made inaccurate information about his
age, marital status, education, and wealth available to
third parties. 867 F.3d at 1117. The risk here was far
graver. The OFAC labels are the type of information
that risks triggering significant concern, confusion,
and even potential contact with a federal intelligence
agency. And the record here shows this risk is far from
hypothetical; indeed, the Department of the Treasury
informed TransUnion that it “continue[d]” to hear
from a number of concerned individuals who had been
inaccurately labeled as OFAC matches by
TransUnion, and that TransUnion’s practice was
“creating unnecessary confusion” among affected
consumers. As Ramirez testified at trial: “[I]if
somebody tells you you’re on a terrorist list, what are
you going to do?”
Second, TransUnion engaged a third-party
vendor—Accuity, Inc.—to develop the software and
database containing the underlying information for
the OFAC alerts. As a result, TransUnion and Accuity
communicated about the database information and
OFAC matches. And TransUnion concedes that OFAC
matches were not housed by TransUnion; the OFAC
list was stored in a separate database operated and
maintained by Accuity. It is precisely for this reason
that TransUnion purportedly determined that the

App-25
OFAC alerts were not governed by the FCRA. 7 This
type of access to and information sharing with a third
party certainly compounds the risk of harm to all class
members’ privacy and reputational interests. The
practice created a significant risk that third parties
other than the affected consumers would learn about
the inaccurate and highly embarrassing OFAC
matches.
Finally, TransUnion—one of the nation’s largest
consumer reporting agencies—made all class
members’ reports available to potential creditors or
employers at a moment’s notice, even without the
consumers’ knowledge in some instances. See 15
U.S.C. §§ 1681b(b)(2)(A) (requiring notice to the
consumer only when a credit report is requested for
employment purposes), 1681b(c)(1)(B) (allowing credit
reports to be furnished before the consumer has
initiated a transaction in certain circumstances).
Credit reports exist for the very purpose of being
disseminated to third parties. Like in Spokeo, where
In an effort to avoid the FCRA’s reach to its unlawful conduct,
TransUnion similarly argued in Cortez that the OFAC
information was maintained and stored by Accuity and,
therefore, the information was not part of consumers’ “file[s]” in
TransUnion’s control. See Cortez, 617 F.3d at 711. The Third
Circuit unequivocally rejected that argument. Id. at 711 (“We do
not believe that Congress intended to allow credit reporting
companies to escape the disclosure requirement in § 1681a(g) by
simply contracting with a third party to store and maintain
information that would otherwise clearly be part of the
consumer’s file and is included in a credit report.”) (emphasis
added); see also id. at 703 (noting that “TransUnion decided not
to include the underlying information for its OFAC product in
TransUnion’s own database” and “decided to use Accuity rather
than maintain the information itself.”).
7

App-26
false information was made available to third parties
on the Internet, TransUnion created a risk of harm to
all class members by allowing third parties to readily
access the reports.
Indeed, the 1,853 class members whose reports
were disseminated to potential creditors have shown
even greater injuries because we know those third
parties, which are in the business of denying or
approving credit-related requests, actually accessed
those class members’ reports containing the false
OFAC alerts. It is difficult to conceive of information
on a credit report that is more damaging to a consumer
than a statement that the consumer is potentially
prohibited from transacting business in the United
States because the consumer is a criminal or a threat
to national security. This is not to mention the
reputational harm that inevitably results from
disseminating this information to a potential creditor.
As to the remaining 6,332 class members,
TransUnion argues these class members cannot show
any injury because their reports were not
disseminated to third parties. However, this reading
of the injury-in-fact requirement is too narrow. True,
Spokeo III did not “consider whether a plaintiff would
allege a concrete harm if he alleged only that a
materially inaccurate report about him was prepared
but never published.” 867 F.3d at 1116 n.3 (emphases
omitted). But that situation is not this case. Here, the
fact that TransUnion made the reports available to
numerous potential creditors and employers—coupled
with the highly sensitive and distressing nature of the
OFAC alerts disclosed to the consumers, the risk of
third-party access TransUnion created through its

App-27
dealings with Accuity, and the federal government’s
awareness of the alerts—is sufficient to show a
material risk of harm to the concrete interests of all
class members. 8
This case is distinguishable from Owner-Operator
Independent Drivers Ass’n, Inc., et al., v. United States
Department of Transportation et al., 879 F.3d 339
(D.C. Cir. 2018), a case relied on heavily by the
dissent. There, the plaintiffs argued that they were
injured “by the mere existence of inaccurate
information” in a database operated by the Federal
Motor Carrier Safety Administration, but they
Our dissenting colleague argues that the risk of harm to class
members other than Ramirez is too speculative. According to the
dissent, “counsel presented no evidence about the consequences
of dissemination of the reports for any class member other than
Ramirez” and could have offered “expert testimony,
representative class members, and credit agency protocol to fill
this gap.” To the extent the dissent suggests that there is no
evidence about dissemination of any of the class members’
reports other than Ramirez’s, that is inaccurate; indeed, as the
dissent recognizes, the parties stipulated that at least a portion
of the class had their credit reports requested by a potential
credit grantor. As noted above, this evidence coupled with other
evidence shows that the remainder of the class members were
subject to a material risk of harm. To the extent the dissent
suggests that class counsel had to show that all class members
suffered adverse consequences as a result of dissemination of
their reports, this is also incorrect. See Spokeo III, 867 F.3d at
1118 (“[I]n the context of [the] FCRA, [an] intangible injury is
itself sufficiently concrete. It is of no consequence how likely [the
plaintiff] is to suffer additional concrete harm as well (such as
the loss of a specific job opportunity).”). The dissent offers no
support for the proposition that counsel was required to introduce
expert testimony and the other type of evidence that the dissent
identifies, precisely because none exists.
8

App-28
conceded that their information was not at risk of
dissemination, and the record showed that any risk of
future disclosure of inaccurate information was
“virtually eliminated by the Department’s adoption of
an interpretive rule.” Id. at 343, 346. The court held
that, although “it is possible that the mere existence
of inaccurate information in a government database
could cause concrete harm depending on how that
information is to be used,” no such harm or risk of
future harm existed because the record showed there
was no risk of disclosure for the absent class members.
Id. at 347. Here, by contrast, the class’s claim of injury
does not simply rest on TransUnion’s maintenance of
an inaccurate database, with conclusive evidence that
there is no risk of dissemination. 9
The other out-of-circuit cases cited by the dissent are similarly
distinguishable. See Gubala v. Time Warner Cable, Inc., 846 F.3d
909, 912 (7th Cir. 2017) (“Had [plaintiff] reason to believe the
company intends to release any of that information or cannot be
trusted to retain it, he would have grounds for obtaining
injunctive relief; but he doesn’t even argue that there is a risk of
such leakage.”); Braitberg v. Charter Commc’ns, Inc., 836 F.3d
925, 930 (8th Cir. 2016) (holding that plaintiff had no standing to
sue under the Cable Communications Policy Act, where he
merely alleged that defendant failed to destroy plaintiff’s
personally identifiable information and retained certain
information longer than the company should have kept it). This
case is also distinguishable from Bassett v. ABM Parking Servs.,
Inc., 883 F.3d 776 (9th Cir. 2018). Bassett involved a vendor that
printed the expiration date of the plaintiff’s credit card on the
plaintiff’s receipt for a one-time transaction, in violation of
another FCRA provision. Id. at 777. There was no material risk
of harm because only the cardholder himself ever saw the receipt.
Id. at 783. This case involves credit reports, not receipts. Credit
reports, unlike receipts, exist for the purpose of being
disseminated to third parties. Moreover, the risk of harm is much
9

App-29
We are not faced with a mere technical or
procedural FCRA violation here. There may be a case
where the nature of the inaccurate information is such
that no risk of harm arises until the credit report
information of all class members is actually
disseminated to a third party, but this is not it. On the
facts of this case, we hold that a real risk of harm arose
when TransUnion prepared the inaccurate reports
and made them readily available to third parties, and
certainly once TransUnion sent the inaccurate
information to the class members and some class
members’ reports were disseminated to third parties.
This risk of harm was directly caused by TransUnion’s
failure to follow reasonable procedures to ensure
maximum possible accuracy of its OFAC information,
and an award of damages would redress the harm
caused by the risk.
2.

Disclosure and Summary-of-Rights Claims

The class’s second and third claims were that
TransUnion failed to: (a) disclose that the class
more direct here. An OFAC alert placed on a credit report runs
an almost inevitable risk of reputational harm, emotional
distress, and/or denial of credit or employment if disclosed to a
third party—real-world harms. In contrast, printing the
expiration date of a credit card does not pose such inevitable risk;
rather, harm would only materialize if a number of other
contingencies occurred. Bassett also did not involve a third-party
vendor with access to the inaccurate information or evidence that
the defendant’s practice created confusion and interaction with
an intelligence agency among consumers receiving the inaccurate
information. This case is more analogous to Spokeo III, 867 F.3d
1108, and Pedro v. Equifax, Inc., 868 F.3d 1275 (11th Cir. 2017)
(holding that the plaintiff had standing where credit reporting
agency included a debt the plaintiff did not owe in the plaintiff’s
consumer report).

App-30
members had been identified as potential OFAC
matches when the consumers requested their credit
reports, in violation of § 1681g(a); and (b) include a
summary-of-rights form when TransUnion mailed the
separate OFAC Letters, in violation of § 1681g(c)(2).
Although we must analyze standing on a claim-byclaim basis, the injuries produced by these two
violations are closely intertwined.
Subsections (a) and (c)(2) work together to protect
consumers’ interests in having access to the
information in their credit reports upon request and
understanding how to correct inaccurate information
in their credit reports upon receipt. 15 U.S.C.
§§ 1681g(a), (c)(2). These interests can only be fulfilled
together; one without the other is meaningless. And
they go to the core of Congress’s purpose in enacting
the FCRA: “to protect consumers from the
transmission of inaccurate information about them[.]”
Guimond, 45 F.3d at 1333; see also Gillespie v. Equifax
Info. Servs., LLC, 484 F.3d 938, 941 (7th Cir. 2007) (“A
primary purpose of the statutory scheme provided by
the disclosure in § 1681g(a)(1) is to allow consumers to
identify inaccurate information in their credit files
and correct this information via the grievance
procedure established under § 1681i. . . . In writing
§ 1681g(a)(1), Congress requires disclosure that is
both ‘clearly and accurately’ made. An accurate
disclosure of unclear information defeats the
consumer’s ability to review the credit file, eliminating
a consumer protection procedure established by
Congress under the FCRA.”). We have previously
acknowledged that the rights created by the FCRA to
accomplish this purpose “resemble other reputational

App-31
and privacy interests that have long been protected in
the law.” Spokeo III, 867 F.3d at 1114.
These are not mere procedural or technical
requirements. They protect consumers’ concrete
interest in accessing important information about
themselves and understanding how to dispute
inaccurate information before it reaches potential
creditors. Cf. Syed v. M-I, LLC, 853 F.3d 492, 499-500
(9th Cir. 2017) (holding that the FCRA provision
requiring prospective employers to obtain a
consumer’s consent before obtaining a credit report in
a standalone document protected a concrete
informational and privacy interest); Nayab v. Capital
One Bank (USA), N.A., 942 F.3d 480, 490-93 (9th Cir.
2019) (holding that every violation of the FCRA
provision that prohibits obtaining a credit report for
an unauthorized purpose violates the consumer’s
substantive privacy interest, and the consumer has
standing “regardless whether the credit report is
published or otherwise used by [a] third-party” and
“need not allege any further harm” (quoting
Eichenberger v. ESPN, Inc., 876 F.3d 979, 983-84 (9th
Cir. 2017))). And although the FCRA’s disclosure
requirements may seem “procedural” in nature,
Congress enacted them because they are the only
practical way to protect consumers’ interests in fair
and accurate credit reporting. See Spokeo III, 867 F.3d
at 1113. Therefore, step one of the Spokeo III
framework is satisfied for both claims.
At step two, we have no trouble concluding that
TransUnion’s disclosure violations exposed all class
members to a material risk of harm to their concrete
informational interests. TransUnion sent the class

App-32
members a document that purported to be their entire
credit report, containing no mention of OFAC. This
put every class member at a risk of real harm: not
knowing that they were falsely being labeled as
terrorists, drug dealers, and threats to national
security. Then, TransUnion sent the class members
the separate OFAC Letter without a summary-ofrights form. This conduct posed a serious risk that
consumers not only would be unaware that this
damaging label was on their credit reports, but also
would be left completely in the dark about how they
could get the label off their reports. 10 TransUnion’s
The dissent suggests that, to establish standing for these two
claims under Section 1681g, every class member must have
shown evidence of shock or confusion. However, all members of
the class were falsely labeled by TransUnion as terrorists and
national security threats and requested a copy of their credit
reports, and TransUnion sent the confusing mailings to all class
members. The mailings that TransUnion provided to class
members were inherently shocking and confusing, and Ramirez,
as the class representative, testified to that effect. To require
further individualized evidence of shock or confusion would
defeat the purpose of class actions. And while there may exist a
case where additional evidence would be required to ascertain
whether the absent class members were indeed shocked or
confused, this case is not it. See also Fed. Election Comm’n v.
Akins, 524 U.S. 11, 21 (1998) (“[T]his Court has previously held
that a plaintiff suffers an ‘injury in fact’ when the plaintiff fails
to obtain information which must be publicly disclosed pursuant
to a statute.”); Pub. Citizen v. U.S. Dep’t of Justice, 491 U.S. 440,
449 (1989) (holding that failure to obtain information subject to
disclosure under Federal Advisory Committee Act was sufficient
injury to confer standing); Havens Realty Corp. v. Coleman, 455
U.S. 363, 374 (1982) (holding that disclosure of false information
about housing availability was sufficient injury to confer
standing under the Fair Housing Act, even where plaintiff “may
have approached the real estate agent fully expecting that he
10

App-33
conduct therefore exposed every class member to a
material risk of harm to the core interests the FCRA
was designed to protect—their interests in being able
to monitor their credit reports and promptly correct
inaccuracies. 11
C. Standing Conclusion
We agree with TransUnion that every class
member needs standing to recover damages at the
final judgment stage. But we also agree with Ramirez
and the class that every class member has standing on
each of the claims in this case. We therefore affirm the
district court’s denial of TransUnion’s motion to
decertify the class for lack of standing and
TransUnion’s post-trial motions based on the same
grounds.
III. Willfulness
TransUnion next contends that it was entitled to
judgment as a matter of law or to a new trial because
Ramirez failed to prove that any of TransUnion’s
FCRA violations were willful. 12 TransUnion argues
would receive false information, and without any intention of
buying or renting a home”).
We note that in many instances a violation of §§ 1681g(a) or
1681g(c)(2) might pose no risk of harm. For example, there likely
would be no risk of harm if the information excluded from the file
disclosure were an inaccurate zip code rather than an inaccurate
OFAC alert. And a failure to include a summary of rights might
pose no risk of harm if there was no inaccurate information in the
consumer’s file to begin with.
11

12 Ramirez and the class pursued only a willfulness theory for
each of their three claims, presumably because statutory and
punitive damages are available for willful, but not negligent,
FCRA violations. See 15 U.S.C. §§ 1681n, 1681o.

App-34
that its conduct complied with the statute as a matter
of law, or, in the alternative, that its conduct was
based on reasonable but mistaken interpretations of
the statute. 13 The district court rejected these
arguments and found that substantial evidence
supported the jury’s findings.
We review the denial of a motion for judgment as
a matter of law de novo, Josephs v. Pac. Bell, 443 F.3d
1050, 1062 (9th Cir. 2006), and we review the denial
of a motion for a new trial for abuse of discretion, Guy
v. City of San Diego, 608 F.3d 582, 585 (9th Cir. 2010).
We affirm the district court.
Judgment as a matter of law is appropriate only
when the evidence—viewed in the light most favorable
to the non- moving party—permits a reasonable jury
to reach only one conclusion, and that conclusion is
contrary to the jury’s verdict. Martin v. Cal. Dep’t of
Veterans Affairs, 560 F.3d 1042, 1046 (9th Cir. 2009).
Similarly, a new trial is appropriate only if “the verdict
is against the clear weight of the evidence[.]” Id.
An FCRA violation is willful when a CRA either
knowingly violates the statute or recklessly disregards
its requirements. Safeco Ins. Co. of Am. v. Burr, 551
U.S. 47, 56-57 (2007). A CRA recklessly disregards the
statute if it adopts an objectively unreasonable
interpretation that runs “a risk of violating the law
substantially greater than the risk associated with a
reading that [is] merely careless.” Id. at 69. When
“conduct is so patently violative” of the FCRA that any
reasonable person would know without guidance that
13 TransUnion does not challenge the verdict form or jury
instructions, which closely tracked the text of the FCRA.

App-35
its interpretation was erroneous, “closely analogous
pre-existing” guidance from the courts is unnecessary.
Syed, 853 F.3d at 504 (quoting Boyd v. Benton Cty.,
374 F.3d 773, 781 (9th Cir. 2004)).
A. Reasonable Procedures Claim
Plaintiffs presented evidence that—despite being
told in 2010 by another circuit court that OFAC alerts
were covered by the FCRA and subject to § 1681e(b)’s
reasonable procedures requirement—TransUnion
continued to utilize name-only searches to produce
OFAC “matches.” Most notably, the Third Circuit
specifically reprimanded TransUnion for failing to use
an additional identifier such as date of birth to verify
the accuracy of OFAC matches. See Cortez, 617 F.3d
at 723 (“Given the severe potential consequences of
[associating a consumer with an SDN, TransUnion’s]
failure to take the utmost care in ensuring the
information’s accuracy—at the very least, comparing
birth
dates
when
they
are
available—is
reprehensible.”). Nonetheless, TransUnion continued
to use only first and last names to identify OFAC
matches until 2013. A reasonable jury could conclude
that this was objectively unreasonable and ran a risk
of error substantially greater than a merely careless
interpretation. See Safeco Ins. Co. of Am., 551 U.S. at
70 (noting that a finding of recklessness is more
appropriate when the defendant had “guidance from
the courts of appeals . . . that might have warned it
away from the view it took”).
B. Disclosure Claim
Section 1681g(a) required TransUnion to “clearly
and accurately” disclose “[a]ll information in the
consumer’s file” when the class members requested

App-36
their reports. 15 U.S.C. § 1681g(a)(1). Plaintiffs
presented evidence that TransUnion adopted a policy
of not including OFAC information on the credit
reports it sent to consumers who requested their files,
even though TransUnion included the OFAC
information on the credit reports it sent to third
parties regarding those same consumers. Instead,
TransUnion sent the class members vague “courtesy”
letters informing them that their names were
“considered a potential match” to names on the OFAC
list. Nowhere did the OFAC Letter disclose that the
version of the class members’ credit reports sent to
third parties contained an OFAC alert on the first
page.
TransUnion’s interpretation of § 1681g(a) as
allowing this conduct is “unambiguously foreclose[d]”
by the language of the statute itself, Syed, 853 F.3d at
505, which required TransUnion to clearly and
accurately disclose all information in the consumers’
reports. 15 U.S.C. § 1681g(a)(1). TransUnion did not
disclose all information. It left out the OFAC alerts.
TransUnion argues that it did not omit the OFAC
alerts from the reports, but simply mailed the OFAC
alerts in separate envelopes. This contention is belied
by the record. The reports themselves had a clearly
indicated beginning and end, and the OFAC Letters
explicitly stated that they were “separate[]” from the
reports. And even if the OFAC Letters did sufficiently
disclose that the OFAC alerts were part of the
consumers’ reports (which they did not), no reasonable
person could conclude that the OFAC Letters were a
clear and accurate method of disclosure. See Syed, 853
F.3d at 504-06.

App-37
Moreover, the jury also heard evidence that the
Third Circuit had told TransUnion in 2010 that it
could not continue to treat OFAC information as
somehow separate from the other information
included
on
consumer
reports.
Accordingly,
TransUnion had “guidance from the courts of appeals”
suggesting that its interpretation was erroneous.
Safeco Ins. Co. of Am., 551 U.S. at 70.
In sum, a reasonable jury could find that
TransUnion was objectively unreasonable and ran a
risk of error substantially greater than mere
carelessness when it excluded arguably the most
important piece of information in the class members’
files—the OFAC alerts—from the reports it sent to
them and instead sent this information in a separate,
confusing “courtesy” letter.
C. Summary-of-Rights Claim
Under 15 U.S.C. § 1681g(c)(2), TransUnion was
required to provide a summary of rights “with each
written disclosure” it sent to consumers pursuant to a
consumer file request. TransUnion argues that it was
reasonable to send the summary of rights with the
first mailing, the consumer report, and assume that
the class members would understand that the
summary of rights also applied to the second mailing,
the OFAC Letter. But as explained above, the two
mailings clearly indicated that they were separate,
rather than components of one disclosure. And the
language of the statute is clear: A summary of rights
must be sent with each written disclosure. Therefore,
there was sufficient evidence to find a willful violation
of § 1681g(c)(2) because any reasonable CRA would

App-38
have known that TransUnion’s interpretation was in
error. See Syed, 853 F.3d at 504-06.
D. Willfulness Conclusion
Had this case been filed before the Third Circuit’s
decision in Cortez, we might have been faced with a
difficult question as to willfulness. But in light of
Cortez, we have no difficulty upholding the verdict.
TransUnion was provided with much of the guidance
it needed to interpret its obligations under the FCRA
with respect to OFAC alerts in 2010 when Cortez was
decided. 617 F.3d at 695. Despite this warning,
TransUnion continued to use problematic matching
technology and to treat OFAC information as separate
from other types of information on consumer reports.
In doing so, it ran an unjustifiably high risk of error.
The jury’s verdict is consistent with the law and
supported by substantial evidence. Accordingly, we
affirm the district court’s denial of TransUnion’s
motion for judgment as a matter of law or a new trial.
See Harper v. City of Los Angeles, 533 F.3d 1010, 1021
(9th Cir. 2008) (“A jury’s verdict must be upheld if it is
supported by substantial evidence, which is evidence
adequate to support the jury’s conclusion, even if it is
also possible to draw a contrary conclusion.” (quoting
Pavao v. Pagay, 307 F.3d 915, 918 (9th Cir. 2002))).
IV. Rule 23
TransUnion next contends that the district court
should not have certified the class in this case because
Ramirez’s claims were not typical of the class’s claims,
as required by Federal Rule of Civil Procedure
23(a)(3). We review the district court’s certification of
a class action for abuse of discretion. Wolin v. Jaguar
Land Rover N. Am., LLC, 617 F.3d 1168, 1171 (9th

App-39
Cir. 2010). Our review is limited to “whether the
district court correctly selected and applied Rule 23’s
criteria.” Parra v. Bashas’, Inc., 536 F.3d 975, 977 (9th
Cir. 2008).
TransUnion argues that Ramirez was not typical
of the class because his injuries were more severe than
the injuries suffered by the rest of the class. Ramirez’s
credit report with the false OFAC alert was sent to a
third party; Ramirez’s alert stated that he was a
match instead of a potential match; Ramirez was
denied credit because of the alert; he canceled a
vacation because of the alert; and he spent significant
time and energy trying to remove the alert, including
hiring a lawyer. In contrast, only a quarter of the other
class members had their credit reports sent to a third
party during the class period, and there was no
evidence regarding whether other class members had
experiences similar to Ramirez’s as a result of the
alerts.
But these differences do not defeat typicality. The
typicality inquiry focuses on “the nature of the
claim . . . of the class representative, and not . . . the
specific facts from which it arose.” Ellis v. Costco
Wholesale Corp., 657 F.3d 970, 984 (9th Cir. 2011)
(quoting Hanon v. Dataproducts Corp., 976 F.2d 497,
508 (9th Cir. 1992)). Even if Ramirez’s injuries were
slightly more severe than some class members’
injuries, Ramirez’s injuries still arose “from the same
event or practice or course of conduct that [gave] rise
to the claims of other class members and [his claims
were] based on the same legal theory.” Lacy v. Cook
Cty., Ill., 897 F.3d 847, 866 (7th Cir. 2018) (quoting
Rosario v. Livaditis, 963 F.2d 1013, 1018 (7th Cir.

App-40
1992)); see also Parsons v. Ryan, 754 F.3d 657, 685
(9th Cir. 2014) (“We do not insist that the named
plaintiffs’ injuries be identical with those of the other
class members, only that the unnamed class members
have injuries similar to those of the named plaintiffs
and that the injuries result from the same, injurious
course of conduct.” (quoting Armstrong v. Davis, 275
F.3d 849, 869 (9th Cir. 2001))).
Ramirez’s injuries were not so unique, unusual, or
severe to make him an atypical representative of the
class. A class representative satisfies typicality when
his “personal narrative is somewhat more colorful”
than other class members’ experiences, as long as his
claim “falls within the common contours of” the classwide theory of liability. Torres, 835 F.3d at 1142; see
also Ellis, 657 F.3d at 985 n.9 (“Differing factual
scenarios resulting in a claim of the same nature as
other class members does not defeat typicality.”). Nor
were the unique aspects of Ramirez’s claims
significant to the point that they “threaten[ed] to
become the focus of the litigation[.]” Torres, 835 F.3d
at 1142 (quoting Hanon, 976 F.2d at 508). Accordingly,
the district court did not abuse its discretion in
certifying (and refusing to decertify) the class. 14
The dissent suggests that “the district court made
compounding errors regarding class certification and standing”
at earlier stages of the case. Indeed, TransUnion moved to
decertify the class nearly a year before trial commenced,
primarily on the basis that individualized issues of Article III
standing predominated. The district court properly denied the
motion, however, because only the class representative must
show standing at the class certification stage. See Melendres, 784
F.3d at 1262; see also Vaquero v. Ashley Furniture Indus., Inc.,
824 F.3d 1150, 1155 (9th Cir. 2016) (“[T]he need for individual
14

App-41
V. Damages
Finally, TransUnion argues that the jury’s
statutory and punitive damages awards were grossly
excessive in violation of the U.S. Constitution. We
review de novo the constitutionality of punitive
damages, Cooper Indus. v. Leatherman Tool Grp., Inc.,
532 U.S. 424, 436 (2001); State Farm Mut. Auto. Ins.
Co. v. Campbell, 538 U.S. 408, 418 (2003), and we
review a district court’s denial of a motion for a new
trial on damages for abuse of discretion, Guy, 608 F.3d
at 585. We agree with the district court that there is
no basis to disturb the statutory damages award, but
we conclude that the punitive damages were
unconstitutionally excessive.
A. Statutory Damages
Under the FCRA, a plaintiff is entitled to
statutory damages between $100 and $1,000 for any
willful violation. 15 U.S.C. § 1681n(a)(1)(A). Here, the
damages calculations does not, alone, defeat class certification.”).
More importantly, the differences between Ramirez’s injuries
and those of other class members are a matter of degree, not
standing. In fact, the district court attempted to distinguish
between the class members’ degrees of injury at the final pretrial
conference. Specifically, the district court suggested to
TransUnion that it could object at the charging conference to the
aggregation of damages in the verdict form, such that if the jury
found TransUnion liable, it could award damages proportional to
the number of class members who suffered certain injuries, such
as disclosure of their consumer reports to third parties. But
TransUnion did not object to the verdict form at the charging
conference, allowing the court to instruct the jury to award the
same amount of damages to all class members—regardless of
their degree of injury.

App-42
jury awarded $984.22 per class member for a total of
about $8 million class-wide. TransUnion argues that
this amount violates due process because it is “so
severe and oppressive as to be wholly disproportioned
to the offense and obviously unreasonable.” United
States v. Citrin, 972 F.2d 1044, 1051 (9th Cir. 1992)
(quoting St. Louis, I.M. & S. Ry. Co. v. Williams, 251
U.S. 63, 67 (1919)). 15
TransUnion’s argument is somewhat of a moving
target, but it relies primarily on this Court’s decision
in Six (6) Mexican Workers v. Arizona Citrus Growers,
904 F.2d 1301 (9th Cir. 1990). There, we reduced a
district court’s award of statutory damages to class
members in an action under the Farm Labor
Contractor Registration Act (“FLCRA”). Id. at 1303,
1312. We explained that the “individual awards
exceeded what was necessary to compensate any
potential injury from the violations,” id. at 1309, and
the “aggregate amount of [the] award was
unprecedented,” id. at 1309-10.
Six (6) Mexican Workers is distinguishable from
this case for a number of reasons. First, it involved a
district court’s determination of damages, which we
reviewed for abuse of discretion—rather than a jury’s
determination, to which we owe “substantial
deference.” Del Monte Dunes at Monterey, Ltd. v. City
of Monterey, 95 F.3d 1422, 1435 (9th Cir. 1996), aff’d,
526 U.S. 687 (1999). Second, it involved analysis that
was specific to the now-repealed FLCRA, and it
15 TransUnion also argued below for remittitur on the theory
that the damages were “clearly not supported by the evidence, or
only based on speculation or guesswork.” Guy, 608 F.3d at 585
(internal quotation marks and citation omitted).

App-43
contained no discussion of constitutional due process.
Third, it involved an award of damages within the
statutory range for each FLCRA violation, rather than
one award within the statutory range for all violations
combined.
In any event, the jury’s award—which falls within
the statutory range—is proportionate to TransUnion’s
offenses and reasonable in light of the evidence.
Indeed, if we were to envision a case that might
warrant the high end of the statutory-damages range,
we might envision something like this case.
TransUnion recklessly labeled thousands of
consumers as potential terrorists and other sanctioned
individuals without taking even basic steps to verify
the accuracy of these labels. And then it hid the ball
from these consumers when they asked for their files
and withheld important information about their right
to dispute the labels.
Congress provided for a set range of damages for
FCRA violations because the “actual harm that a
willful violation of [the FCRA] will inflict on a
consumer will often be small or difficult to prove.”
Bateman v. Am. Multi-Cinema, Inc., 623 F.3d 708, 718
(9th Cir. 2010). We need not determine whether courts
have the authority to disturb a jury’s statutorydamages award when it falls within Congress’s
prescribed range because in this case the jury’s award
is clearly proportionate to the offense and consistent
with the evidence. 16
16 TransUnion does not seriously argue that the aggregate
award—representing about a half percent of TransUnion’s total
net worth—is “oppressive.” See Citrin, 972 F.2d at 1051.

App-44
B. Punitive Damages
The FCRA also permits an award of punitive
damages in an amount “as the court may allow[.]” 15
U.S.C. § 1681n(a)(2). The jury awarded each class
member $6,353.08 in punitive damages for a classwide total of about $52 million. TransUnion argues
that this award is constitutionally infirm because: (1)
it is duplicative, (2) it punishes for injuries to third
parties not involved in this suit, and (3) it is excessive
in violation of due process.
TransUnion’s first argument is that the statutory
damages were sufficient to accomplish deterrence, so
the punitive damages, which also aim to deter, were
duplicative. But the statute explicitly allows for both
types of damages: statutory damages to compensate
plaintiffs for their intangible injuries that are difficult
to quantify, and punitive damages to punish and deter
willful FCRA violations. TransUnion does not
challenge the jury instructions regarding damages,
nor does TransUnion point to anything specific in the
record suggesting that the jury might have
misunderstood the distinct purposes of statutory and
punitive damages. We will not disturb the jury’s
award on this basis.
TransUnion next argues that the jury awarded
punitive damages because it wanted to punish
TransUnion for injuring nonparties, which violates
due process. See Philip Morris USA v. Williams, 549
U.S. 346, 353-55 (2007). But “[a] jury may consider
evidence of actual harm to nonparties as part of its
reprehensibility determination,” even though it “may
not ‘use a punitive damages verdict to punish a
defendant directly’” for injury inflicted upon non-

App-45
parties. White v. Ford Motor Co., 500 F.3d 963, 972
(9th Cir. 2007) (quoting Williams, 549 U.S. at 355).
“Where there is a significant risk that jurors will
misapprehend the distinction, the court must upon
request protect against that risk by ‘avoid[ing]
procedure that unnecessarily deprives juries of proper
legal guidance.’” Id.
To begin with, TransUnion does not challenge, or
even discuss, the jury instructions regarding punitive
damages. Nor did TransUnion object to the
instructions or class counsel’s arguments regarding
punitive damages below. Our review of the record
reflects nothing that would lend support to
TransUnion’s argument beyond very limited
references to nonparties in counsel’s arguments. We
reject this challenge.
Finally, TransUnion argues that $6,353.08 in
punitive damages per class member is “grossly
excessive” in violation of constitutional due process.
State Farm, 538 U.S. at 416. In reviewing the
constitutionality of punitive damages, we consider
three guideposts: “(1) the degree of reprehensibility of
the defendant’s misconduct; (2) the disparity between
the actual or potential harm suffered by the plaintiff
and the punitive damages award; and (3) the
difference between the punitive damages awarded by
the jury and the civil penalties authorized or imposed
in comparable cases.” Id. at 418 (citing BMW of N.
Am., Inc. v. Gore, 517 U.S. 559, 575 (1996)).
1.

Reprehensibility

The reprehensibility of TransUnion’s conduct is
the most important guidepost. State Farm, 538 U.S. at
419. We must consider whether:

App-46
the harm caused was physical as opposed to
economic; the tortious conduct evinced an
indifference to or a reckless disregard of the
health or safety of others; the target of the
conduct had financial vulnerability; the
conduct involved repeated actions or was an
isolated incident; and the harm was the result
of intentional malice, trickery, or deceit, or
mere accident.
Id.
Here, there was no physical harm, and
TransUnion’s conduct did not evince an indifference to
health or safety. However, “the gravity of harm that
could result from [TransUnion’s matching] of [a
consumer] with an individual on a ‘terrorist’ list
cannot be over stated.” Cortez, 617 F.3d at 723. The
class members were also financially vulnerable in the
sense that their ability to obtain credit depended on
the care that TransUnion—a billion-dollar company—
took in gathering data about them.
But most importantly, TransUnion’s misconduct
was repeated and willful. TransUnion used name-only
OFAC searches for more than a decade, resulting in
thousands of false positives and not a single known
actual match identified. TransUnion’s conduct
probably was not “the result of intentional malice,
trickery, or deceit,” but it was far from “mere
accident.” State Farm, 538 U.S. at 419. TransUnion
began receiving consumer complaints regarding false
OFAC alerts in 2006; a jury found it liable for
hundreds of thousands of dollars for a false OFAC
alert in 2007; and the Third Circuit told TransUnion
in 2010 that false OFAC alerts were a serious matter

App-47
and that its “cavalier[]” reliance on a name-only
screening software and treatment of OFAC
information as exempt from the FCRA were
inexcusable. Cortez, 617 F.3d at 710. TransUnion’s
conduct demonstrated a disregard for the gravity of an
OFAC match and what a false positive would mean,
emotionally and practically, for each consumer.
2.

Ratio

There is no bright-line rule about the maximum
ratio due process permits between the harm suffered
by the plaintiff (i.e., the compensatory damages) and
the punitive damages. State Farm, 538 U.S. at 425.
However, the Supreme Court has noted that punitive
“awards exceeding a single-digit ratio” will rarely
satisfy due process, and punitive awards exceeding
four times the amount of compensatory damages
“might be close to the line of constitutional
impropriety.” Id. A ratio higher than 4 to 1 may be
upheld where “a particularly egregious act has
resulted in only a small amount of economic damages.”
Id. (quoting Gore, 517 U.S. at 582). But “[w]hen
compensatory damages are substantial,” a ratio lower
than 4 to 1 may be the limit. Id.
In this case, the ratio between the punitive and
statutory awards is 6.45 to 1. Although TransUnion’s
conduct was egregious for the reasons explained
above, the jury’s compensatory award was
substantial—near the high end of the statutory range.
Moreover, when viewed in the aggregate, $8 million in
statutory damages is quite substantial. Under the
circumstances of this case, we conclude that a ratio of
4 to 1 is the most the Constitution permits.

App-48
3.

Comparable Civil Penalties

We agree with our sister circuits that
consideration of civil penalties is not useful in the
FCRA context because there is no “truly comparable”
civil penalty to an FCRA punitive-damages award.
Cortez, 617 F.3d at 724; see Saunders v. Branch
Banking & Tr. Co. of Va., 526 F.3d 142, 152 (4th Cir.
2008); Bach v. First Union Nat. Bank, 486 F.3d 150,
154 n.1 (6th Cir. 2007). Therefore, we do not consider
this factor.
4.

Punitive-Damages Conclusion

We conclude that the punitive-damages award
was constitutionally excessive in light of the Gore
guideposts because, although TransUnion’s conduct
was reprehensible, it was not so egregious as to justify
a punitive award of more than six times an already
substantial compensatory award.
“When a punitive damage award exceeds the
constitutional maximum, we decide on a case-by-case
basis whether to remand for a new trial or simply to
order a remittitur.” Southern Union Co. v. Irvin, 563
F.3d 788, 792 n.4 (9th Cir. 2009). This litigation has
already spanned a number of years, and we do not
think a new trial would bring to light any new
evidence that might permit a ratio higher than 4 to 1.
We therefore reverse the district court’s judgment
regarding punitive damages, vacate the punitive
damages award, and remand with instructions to
reduce the punitive damages to $3,936.88 per class
member, which represents four times the statutory
damages.

App-49
VI. Conclusion
We hold that every member of a class action
certified under Rule 23 must demonstrate Article III
standing at the final stage of a money damages suit
when class members are to be awarded individual
monetary damages. And we hold that, on this record,
every class member had standing because
TransUnion’s reckless handling of OFAC information
exposed every class member to a real risk of harm to
their
concrete
privacy,
reputational,
and
informational interests protected by the FCRA. We
also uphold the jury’s verdict finding willful violations
of sections 1681e(b), 1681g(a)(1), and 1681g(c)(2) of
the FCRA because the verdict was supported by
substantial evidence. We conclude that the jury’s
award of statutory damages near the high end of the
range was clearly justified.
With respect to punitive damages, we agree with
the Third Circuit that it is unsurprising that a jury
was “incensed” by TransUnion’s flippant placement of
terrorist alerts on consumer credit reports and its
consistent refusal to take responsibility or
acknowledge the harm it has caused. Indeed, even on
appeal, TransUnion continues to take the position
that labeling someone a terrorist causes them no
harm. Nonetheless, despite the reprehensibility of
TransUnion’s conduct, we are compelled to reduce the
punitive damages in this case because the jury’s
award is unconstitutionally excessive. We conclude
that a ratio of 4 to 1 between the statutory and
punitive damages is the most the Constitution permits
on this record. We vacate the punitive damages and

App-50
remand for a reduction, but otherwise affirm the
district court.
REVERSED and VACATED as to the amount of
punitive damages; REMANDED with instructions to
reduce the punitive damages to $3,936.88 per class
member; AFFIRMED in all other respects. The
parties shall bear their own costs on appeal.

App-51
McKEOWN, Circuit Judge, concurring in part and
dissenting in part:
A class action jury trial is a high-stakes affair
more common in cinema than an actual courtroom.
But no screenwriter would feature the complex issue
raised in this appeal: a standing infirmity during a
time of flux in the doctrine. In its otherwise deft
handling of a difficult case, the district court made
compounding errors regarding class certification and
standing, leading to a jury verdict of nearly $60
million based on the unenviable experience of a single,
atypical class representative. The bottom line is that
for judgment at trial, every member of the class must
have Article III standing. Conjecture based on an
unrepresentative plaintiff does not meet the
constitutional minimum.
The majority paints a dramatic story of corporate
indifference. And, indeed, Sergio Ramirez was the
victim of unforgivable circumstances at the hands of
TransUnion. But his misfortune alone cannot justify
damages for the entire class. At trial each member of
the class must establish standing. Except for a limited
number of class members whose credit report was
disclosed to third parties, there was no evidence of any
harm or damages to remaining class members.
Instead, the trial focused on Ramirez and his unique
circumstances. Missing at trial was evidence related
to other members of the class, a deficiency that cannot
be cured by speculation. Unfortunately, neither the
district court nor the parties followed this dictate.
Let me first note my points of agreement with the
majority. It is well established that Article III and the
Rules Enabling Act require all members of a damages

App-52
class to have standing at trial, so here the 1,853 class
members whose inaccurate information was disclosed
to a third party had standing to assert a reasonable
procedures claim. I also agree that the punitive
damages award was impermissibly excessive. In my
view, however, no one but Ramirez and the class
members whose information was disclosed to a third
party had standing to assert a reasonable procedures
claim, and only Ramirez had standing to bring the
disclosure and summary of rights claims. I therefore
respectfully dissent in part.
I.

Class Certification

The standing issues at trial germinated from
seeds sown during class certification. The only
asserted uniform classwide experience was the
existence of TransUnion’s internal terrorist watch list
alerts and the mailing of separate letters—faint
allegations that strain Rule 23’s typicality
requirements. Absent class members simply rode
Ramirez’s coattails, while his stark atypicality as the
lone class representative ensured that he would
“‘become the focus of the litigation.’” Hanon v.
Dataproducts Corp., 976 F.2d 497, 508 (9th Cir. 1992)
(citation omitted); see also Melendres v. Arpaio, 784
F.3d 1254, 1263 (9th Cir. 2015) (quoting Gratz v.
Bollinger, 539 U.S. 244, 265 (2003) (named plaintiffs
were adequate class representatives because their
“claims do not ‘implicate a significantly different set of
concerns’ than the unnamed plaintiffs’ claims”). When
it came time for trial, the certification error was only
compounded.

App-53
II. Ramirez and the Class
The majority declares that “each member of a
class certified under Rule 23 must satisfy the bare
minimum of Article III standing at the final-judgment
stage of a class action in order to recover monetary
damages in federal court.” This principle, though, does
not square with what happened at the trial, which
opened with class counsel telling jurors that they
would learn “the story of Mr. Ramirez.” And indeed
they did. Jurors learned that a car dealership refused
to grant Ramirez financing because his credit report
flagged him as a “match” to a terrorist watch list, and
that he was frightened, humiliated, and confused. He
contacted TransUnion and was informed he was not
on the watch list, but then received two separate
mailings: one purporting to be his full credit report
and making no mention of the terrorist watch list, and
a subsequent letter informing Ramirez that he was a
potential match for the terrorist watch list. The second
letter omitted the summary of FCRA rights and
grievance instructions contained in the first mailing.
After closely reviewing both letters, Ramirez was at a
loss, and cancelled a planned family vacation to
Mexico. Only after consulting with an attorney and
the Treasury Department did he finally compel
TransUnion to remove his watch list designation.
The story of the absent class members, in
contrast, went largely untold. The jury learned class
members requested a credit report from TransUnion
and were sent separate mailings. The trial featured no
evidence that absent class members received, opened,
or read the mailings, nor that they were confused,
distressed, or relied on the information in any way.

App-54
There was no evidence that absent class members
were denied credit, or expended any time or energy
attempting to clear their name. It’s possible that other
class members—perhaps many others—had these
experiences. But the hallmark of the trial was the
absence of evidence about absent class members, or
any evidence that they were in the same boat as
Ramirez. The jury was left to assume that the absent
class members suffered the same injury. But such
conjecture is insufficient to confer Article III standing.
III. Claims
A. Reasonable Procedures Claim
The parties stipulated at trial that, like Ramirez,
a quarter of the class had their inaccurate credit
reports sent to a third party, affording them clear
standing for the claim that TransUnion failed to follow
reasonable procedures to assure maximum accuracy
on their credit reports. For the overwhelming majority
of the class, though, we face the open question of
whether there is “concrete harm” when “a materially
inaccurate report . . . was prepared but never
published” to a third party. Robins v. Spokeo, Inc., 867
F.3d 1108, 1116 & n.3 (9th Cir. 2017) (“Spokeo III”)
(emphasis in original). On this record, there is not.
Class members do not argue that they have an interest
“that [has] long been protected in the law.” Id. at 1114.
And
although
“publication
of
defamatory
information . . . has long provided the basis for a
lawsuit,” Pedro v. Equifax, Inc., 868 F.3d 1275, 1280
(11th Cir. 2017), there is no common law analogue for
a suit “absent dissemination,” Owner-Operator Indep.
Drivers Ass’n, Inc. v. U.S. Dep’t of Transp., 879 F.3d
339, 344-45 (D.C. Cir. 2018).

App-55
Nor is there any indication that Congress sought
to protect a consumer’s interest in an error-free credit
database itself. Rather, Congress’s concern was with
the “dissemination of inaccurate information, not its
mere existence in the . . . database.” Owner-Operator,
879 F.3d at 45 (emphasis added). As we have
recognized, Congress enacted the reasonable
procedures requirements “‘to protect consumers from
the transmission of inaccurate information about
them.’” Spokeo III, 867 F.3d at 1113 (quoting Guimond
v. TransUnion, 45 F.3d 1329, 1333 (9th Cir. 1995)).
Any “concrete interest in accurate credit reporting” is
implicated only upon disclosure to a third party. See
Spokeo III, 867 F.3d at 1115. Nothing in the text,
structure, or history of FCRA suggests that Congress
sought to afford consumers with plenary police powers
over the information contained in credit reporting
agencies’ internal databases, and “the mere existence
of inaccurate database information is not sufficient to
confer Article III standing.” Owner-Operator, 879 F.3d
at 345.
The majority does not dispute these points.
Instead, it holds that TransUnion’s inaccurate
reports, once created and stored, were “made
available,” which—combined with the “distressing
nature” of TransUnion’s mailings to consumers and
the “risk of third-party access” constituted a “material
risk” of harm to the entire class. See Spokeo, Inc. v.
Robins, 136 S. Ct. 1540, 1550 (2016), as revised (May
24, 2016) (“Spokeo II”). This statement makes for a
good closing argument, but counsel presented no
evidence about the consequences of dissemination of
the reports for any class member other than Ramirez.
The majority observes that a credit report may be

App-56
divulged “to potential creditors or employers at a
moment’s notice.” This possibility, however, does not
amount to a material risk—one of Spokeo II’s core
teachings is that Article III requires a discernable,
non-conjectural likelihood of harm. Without doubt,
counsel could have offered expert testimony,
representative class members, and credit agency
protocol to fill this gap. But none was proffered. This
does not mean that evidence must be proffered as to
each class member, and I reiterate that the 1,853
individuals whose report was disclosed to third parties
have standing. Rather, Ramirez was required to
present something other than his own story; not only
was he not typical of the class, but without additional
testimony, harm as to the bulk of the class was
conjectural. In analogous circumstances, other circuits
have determined that similar chains of events are too
speculative and attenuated to establish a “material
risk of harm.” See Owner-Operator, 879 F.3d at 347
(determining “prospect of future injury” was purely
speculative when “nothing in the record indicates that
anyone has recently accessed or used the information
at issue”); Gubala v. Time Warner Cable, Inc., 846
F.3d 909, 910-11 (7th Cir. 2017) (concluding mere
retention of customer data, in violation of a federal
statute but without dissemination to a third party, did
not confer standing); Braitberg v. Charter Commc’ns,
Inc., 836 F.3d 925, 930-31 (8th Cir. 2016) (same).
Because no evidence in the record establishes a
serious likelihood of disclosure, we cannot simply
presume a material risk of concrete harm, and threequarters of the class lacks standing for the reasonable
procedures claim.

App-57
B. Disclosure and
Claims

Summary of

Rights

The lack of evidence of concrete harm to absent
class members is even more stark when considering
the disclosure and summary of rights claims. The first
alleges that TransUnion willfully failed to disclose
class members’ full credit reports by not including the
OFAC information when sending consumers’ credit
files—that is to say, by sending the information in a
separate mailing. The second claim relates to
TransUnion’s failure to include a summary of rights in
the envelope containing the OFAC letter.
Notably, TransUnion sent the credit reports and
OFAC alerts contemporaneously. Omitting the OFAC
information from the credit summary and instead
sending it “within hours,” may be a technical violation
of FCRA’s disclosure requirement, and the “shock,”
that Ramirez testified he felt upon receiving the
separate OFAC communication is sufficient to confer
Article III standing upon him. There was no evidence,
however, that a single other class member so much as
opened the dual mailings, or that anyone other than
Ramirez was surprised to receive them.
Similarly, TransUnion’s OFAC letter failed to
inform him how to dispute being a potential watch list
match, an omission that confused Ramirez, who
plainly has standing to bring a summary of rights
claim. But whether any other absent class member
was confused, suffered the adverse consequences that
befell Ramirez, or even opened the letter, is pure
conjecture. For the absent class members, evidence of
disclosure and summary of rights violations were only
“a bare procedural violation, divorced from any

App-58
concrete harm,” Spokeo II, 136 S. Ct. at 1549, and no
common law analogue or clear congressional directive
suggests that Article III requirements are satisfied in
the face of such an absence of evidence.
IV. Conclusion
Trial attorneys understand the importance of a
narrative, and “the story of Mr. Ramirez” has all the
compelling elements: a sympathetic protagonist, a
corporate antihero, and thousands of unseen victims.
The purpose of a trial, however, is to evaluate
evidence, not produce a satisfying plot. Although the
strategy behind presenting only Ramirez’s unusually
sympathetic case to the jury was self-evident, the
nature of his claims likely bore little resemblance to
experiences of the absent class members. Or perhaps
they did. But based on the evidence at trial, it is
impossible to know.
At trial, class members lacking a constitutionally
cognizable injury should not have been permitted to
recover damages, yet TransUnion now owes 8,185
class members tens of millions of dollars based on the
unfortunate and unrepresentative experience of a
single plaintiff. TransUnion’s procedural violations
may well have harmed some class members, but we
are limited to the evidence in the record—evidence
that fails to establish a concrete injury-in-fact for most
class members on most claims. Speculation can
complete a story, but it cannot cure this infirmity. I
respectfully dissent in part.

App-59
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 17-17244
________________
SERGIO L. RAMIREZ,
v.

Plaintiff-Appellee,

TRANSUNION LLC,
Defendant-Appellant.
________________
Filed: Apr. 8, 2020
________________
Before: M. Margaret McKeown, William A. Fletcher,
and Mary H. Murguia, Circuit Judges.
________________
ORDER
________________
Judges Fletcher and Murguia have voted to deny
the petition for panel rehearing and petition for
rehearing en banc. Judge McKeown has voted to grant
the petition for panel rehearing and petition for
rehearing en banc.
The petition for en banc rehearing has been
circulated to the full court, and no judge of the court
has requested a vote on the petition for rehearing en
banc. Fed. R. App. P. 35.

App-60
Appellant’s petition for rehearing and petition for
rehearing en banc is DENIED (Doc. 55).

App-61
Appendix C
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA
________________
No. 12-cv-00632-JSC
________________
SERGIO L. RAMIREZ,
v.

Plaintiff,

TRANSUNION, LLC,
Defendant.
________________
Filed: Nov. 7, 2017
________________
ORDER
________________
Plaintiff Sergio Ramirez filed this class action
alleging that Defendant Trans Union violated the Fair
Credit Reporting Act (FCRA), 15 U.S.C. § 1681 et seq.,
through its OFAC Name Screen Alert. The OFAC
Name Screen Alert or OFAC Alert is a service Trans
Union provides to its customers which identifies
persons whose names match individuals (known as
Specially Designated Nationals or SDNs) on the
United States government’s list of terrorists, drug
traffickers, and others with whom Americans are
prohibited from doing business. After a jury returned
a verdict in Plaintiff’s favor and awarded statutory
and punitive damages of more than $60 million, Trans
Union moved for judgment as matter of law, or in the

App-62
alternative, for new trial. (Dkt. No. 321.) Having
considered the briefs and having had the benefit of
oral argument on October 5, 2017, the Court DENIES
Trans Union’s motion. The jury’s verdict was
supported by substantial evidence and there is no
basis to set aside the award of statutory and punitive
damages.
DISCUSSION
Following a weeklong trial, the jury reached a
verdict in favor of Plaintiff and the class and awarded
over $60 million in statutory and punitive damages.
The jury found in Plaintiff’s favor on all three claims
under the FCRA: that over a six-month period in 2011
Trans Union violated three FCRA requirements:
(1) that
credit
reporting
agencies
establish
“reasonable procedures” to ensure the “maximum
possible accuracy” of information provided about
consumers under 15 U.S.C. § 1681e(b); (2) that credit
reporting agencies “clearly and accurately” disclose
“all information in the consumers file at the time of [a]
request” under § 1681g(a), and (3) that credit
reporting agencies provide a statement of consumer
rights with each such disclosure under § 1681g(c).
Plaintiff argued, and the jury apparently agreed, that
Trans Union’s name-only matching protocol was not a
reasonable procedure designed to ensure the
maximum possible accuracy of consumer information,
and that Trans Union’s disclosure of OFAC
information to consumers violated Section 1681g by
failing to disclose OFAC information to consumers
simultaneously with their consumer reports and by
failing to provide a statement of consumer rights with

App-63
the separately furnished OFAC disclosure. The jury
also concluded that Trans Union’s conduct was willful.
Trans Union challenges the jury’s verdict on
multiple grounds. First, Trans Union contends that it
is entitled to judgment as a matter of law because the
evidence does not support a finding of a willful
violation of any of the three FCRA prongs at issue in
this case. Next, Trans Union argues that it is entitled
to a new trial because Plaintiff’s counsel made
improper and prejudicial arguments and statements
during trial. Finally, Trans Union insists that the
statutory and punitive damages verdicts must be set
aside because they are excessive and unconstitutional.
None of these arguments is persuasive.
A.

Trans Union’s Motion for Judgment as a
Matter of Law

A Rule 50(b) motion for judgment as a matter of
law is appropriate when the evidence permits only one
reasonable conclusion, and that conclusion is contrary
to that of the jury. Martin v. Cal. Dep’t of Veterans
Affairs, 560 F.3d 1042, 1046 (9th Cir. 2009). The court
must view the evidence in the light most favorable to
the nonmoving party and draw all reasonable
inferences in that party’s favor, EEOC v. Go Daddy
Software, Inc., 581 F.3d 951, 961 (9th Cir. 2009), and
the court “may not make credibility determinations or
weigh the evidence.” Reeves v. Sanderson Plumbing
Prods., Inc., 530 U.S. 133, 150 (2000). A “jury’s verdict
must be upheld if it is supported by substantial
evidence, which is evidence adequate to support the
jury’s conclusion, even if it is possible to draw a
contrary conclusion.” Pavao v. Pagay, 307 F.3d 915,
918 (9th Cir. 2002).

App-64
First, as to the Section 1681(e)(b) reasonable
procedures claim, Trans Union maintains that there
was no willful violation because it did its best and the
OFAC Name Screen Alert was exactly that—a nameonly match, which is what their customers asked them
to provide. The trial record includes substantial
evidence from which a jury could have reached a
contrary conclusion, including but not limited to the
following:
•

•

•

•

Trans Union used name-only matching logic,
disregarding middle names, dates of birth,
social security numbers, places of birth, and all
other available identifying information, to
associate Ramirez and all other class members
with the OFAC list throughout the class
period.
Trans Union’s name-only matching procedure
for OFAC information contrasted with its
procedures for non-OFAC credit reports; to
associate information with a consumer on a
non-OFAC credit report Trans Union required
additional identifying information, such as
address, date of birth, or social security
number.
The two other credit reporting agencies
(Experian and DealerTrack) that screened Mr.
Ramirez against the OFAC list in February
2011 were able to accurately report that he
was not a match to the OFAC SDN List.
Trans Union had repeated notice of problems
with its OFAC procedures between 2005 and
2011, including the Cortez action, consumer
inquiries, and communications from the
United States Department of Treasury.

App-65
Despite all the problems and notwithstanding
the Cortez decision, Trans Union did not
consider using a vendor other than Accuity, or
stopping the sale of OFAC information.
• Trans Union cannot identify a single instance
in which its OFAC Alert product identified
someone actually on the OFAC list.
• For each person who contacted Trans Union to
dispute the OFAC information, Trans Union
performed a manual review and removed the
OFAC Alert.
• Trans Union removed Mr. Ramirez’s OFAC
Alert when it received a handwritten note from
him saying “please get me off the ofac list.”
Second, Trans Union argues that Plaintiff failed
to prove a willful violation of either Section 1681g(a)
and (c)(2). It maintains that its disclosure attempted
to comply with the Third Circuit Court of Appeal’s
decision in Cortez v. Trans Union, LLC, 617 F.3d 688
(3d Cir. 2010), and argues that nothing in the statute
requires all the required information to be delivered
simultaneously; to the contrary, the statute suggests
that only one disclosure of rights is required per
request. In any event, Trans Union argues they had
no intent to violate the FCRA. The trial evidence,
however, fully supports a contrary conclusion. For
example, the evidence supports the following findings:
•

•

•

Ramirez requested a copy of his Trans Union
file, and received his file or “personal credit
report” which identified itself as the response to
his request, and contained no reference
whatsoever to OFAC.
The form of the “personal credit report” was the
same for all class members in 2011, and like the

App-66
form sent to Ms. Cortez in 2005, omitted OFAC
information.
• Trans Union sent Mr. Ramirez and all other
class members a separate letter regarding the
OFAC record that “is considered a potential
match” to the consumer’s name. The letter is
not identified as a file disclosure, and says that
the requested personal credit report “has been
mailed to you separately.” The letter also states
that it is being provided as a “courtesy,” and
does not inform the consumer that the OFAC
information can be disputed if inaccurate.
• Trans Union continued to disclose this
information separately because it concluded
that it was technologically infeasible to do it all
at once, but it never sought outside expert
assistance with the issue and it was ultimately
able to solve the infeasibility issue six months
later.
• Since it introduced the product in 2002, Trans
Union has had the capability to incorporate
OFAC information into the credit reports sold
to customers.
• Trans Union did not begin to disclose OFAC
information to consumers in any manner until
2011, and never considered stopping sales of
OFAC alerts to third parties.
• Trans Union misrepresented the content of its
separate OFAC letter in a communication to the
United States Department of Treasury, falsely
claiming that it instructed consumers about
their right to dispute OFAC information.
Trans Union’s motion for judgment as a matter of
law is therefore DENIED. Substantial evidence

App-67
supports the jury’s conclusion that Trans Union
willfully violated 15 U.S.C. §§ 1681e(b), 1681g(a), and
1681g(c).
B. Trans Union’s Motion for New Trial
Under Rule 59, a court has the discretion to grant
a new trial “for any reason for which a new trial has
heretofore been granted in an action at law in federal
court.” Fed. R. Civ. P. 59(a)(1)(A). The grounds for a
new trial include: (1) a verdict that is contrary to the
weight of the evidence; (2) a verdict that is based on
false or perjurious evidence; or (3) to prevent a
miscarriage of justice. Molski v. M.J. Cable, Inc., 481
F.3d 724, 729 (9th Cir. 2007) (quotation marks and
citation omitted). Erroneous evidentiary rulings and
errors in jury instructions are also grounds for a new
trial. See Ruvalcaba v. City of Los Angeles, 64 F.3d
1323, 1328 (9th Cir. 1995). A new trial should be
granted where, after “giv[ing] full respect to the jury’s
findings, the judge on the entire evidence is left with
the definite and firm conviction that a mistake has
been committed” by the jury. Landes Constr. Co. v.
Royal Bank of Canada, 833 F.2d 1365, 1365 (9th Cir.
1987).
Trans Union insists that it is entitled to a new
trial because of counsel’s improper statements during
closing argument and improper questioning of
witnesses regarding the Cortez case.
First, Trans Union maintains that Plaintiff’s
counsel’s references to unnamed executives sitting in
tall buildings was inflammatory as was other
language regarding Trans Union’s failure to call a trial
witness and a statement suggesting that although
only 25 percent of the class applied for credit during

App-68
the class period, the effect of Trans Union’s OFAC
Alert on these individuals beyond the six-month class
period is unknown. Trans Union’s objections to these
statements are unpersuasive. As an initial matter, to
the extent that Trans Union took exception to
Plaintiff’s counsel’s remarks, defense counsel should
have objected and sought appropriate relief from the
Court. See Bird v. Glacier Elec. Coop., Inc., 255 F.3d
1136, 1148 (9th Cir. 2001). In the absence of “a
contemporaneous objection or motion for a new trial
before a jury has rendered its verdict,” a new trial is
warranted [only] where the integrity or fundamental
fairness of the proceedings in the trial court is called
into serious question.” 1 Id. Further, in evaluating the
likelihood of prejudice from the comments, the court
considers “the totality of circumstances, including the
nature of the comments, their frequency, their
possible relevancy to the real issues before the jury,
the manner in which the parties and the court treated
the comments, the strength of the case, and the verdict
itself.” Hemmings, 285 F.3d at 1193. A new trial “is
available only in ‘extraordinary cases.’” Id. at 1193
(quoting Bird, 255 F.3d at 1148). In Bird, a new trial
was warranted based on counsel’s inflammatory
Trans Union’s reliance on the Fourth Circuit Court of Appeal’s
decision in Leathers v. Gen. Motors Corp., 546 F.2d 1083, 1086
(4th Cir. 1976), for the proposition that counsel was not required
to object at the time because it would have drawn more attention
to the improper conduct is unpersuasive as Ninth Circuit caselaw
is squarely to the contrary. See, e.g., Hemmings v. Tidyman’s Inc.,
285 F.3d 1174, 1195 (9th Cir. 2002) (“The fact that counsel did
not object before the jury was instructed strongly suggests that
counsel made a strategic decision to gamble on the verdict and
suspected that the comments would not sway the jury.”).
1

App-69
closing argument which included several racially
charge remarks such as likening a contract dispute to
a “massacre” of members of a Native American tribe.
Bird, 255 F.3d at 1149-51.
Trans Union has made no such comparable
showing here. It has thus failed to meet the “‘high
threshold’ [erected by the federal courts] to claims of
improper closing arguments in civil cases raised for
the first time after trial.’” Drayton v. Scallon, 685 F.
App’x 557, 560-61 (9th Cir. 2017) (quoting Hemmings,
285 F.3d at 1193)). In addition, as in Drayton, the
Court here “also instructed the jury that the
statements or argument of counsel is not evidence, an
admonition that [the Court] presume[s] the jury
followed.” Drayton, 685 F. App’x at 561 (citing Doe ex
rel. Rudy-Glanzer v. Glanzer, 232 F.3d 1258, 1270-71
(9th Cir. 2000)).
Second, Trans Union objects to Plaintiff’s
counsel’s handling of information relating to the
Cortez decision. At the final pretrial conference, the
parties stated their intent to offer a stipulation
regarding the Cortez decision. Plaintiff’s counsel
explained that the stipulation “would not limit us on
examining witnesses” to which defense counsel
responded “we weren’t saying you can’t mention
Cortez” and the Court confirmed, “so you can question,
of course.” (Dtk. No. 318 at 13:2-3; 14:5-8.) At trial, the
parties submitted the stipulation which the Court
read to the jury. The stipulation summarized Cortez
and stated that “[n]othing in this stipulation shall
preclude either party from examining any witness
about the Cortez litigation or about Ms. Cortez.” (Dkt.
No. 287 at ¶ 2.) Plaintiff’s counsel then proceeded to

App-70
question Trans Union witnesses regarding their
knowledge of the Cortez decision, including Michael
O’Connell, Trans Union’s Vice President of Product
Development, who testified to his understanding of
the opinion. Trans Union now objects to Plaintiff’s
counsel’s question on redirect wherein he asked Mr.
O’Connell whether he was “aware that actually one of
the things that the Cortez decision said was that the
jury could have reasonably concluded that Trans
Union could have taken steps to prevent and minimize
the possibility of an erroneous OFAC alert by using or
checking the date of birth of the consumer against the
birthdate of the person on the SDN list?” (Dkt. No. 294
at 158(533):11-16. 2) This question was fully within the
bounds of the parties’ stipulation and sought
information relevant to the willfulness inquiry.
Next, Trans Union emphasizes that in closing
argument, Plaintiff’s counsel stated that “[t]he Cortez
jury found Trans Union in willful violation of this
provision on behalf of the FCRA for not showing the
OFAC alert in her disclosure.” (Dkt. No. 310 at
137(855):14-16.) Defense counsel did not object at the
time, but did raise it outside the jury’s presence before
the punitive damages phase of the case. Counsel
sought an instruction or admonition that Plaintiff’s
counsel should not reiterate this statement in his
closing argument regarding punitive damages because
Record citations are to material in the Electronic Case File
(“ECF”); pinpoint citations are to the ECF-generated page
numbers at the top of the documents. For the Trial Transcript,
the main citation is to the ECF-generated page number, the
transcript page number (which is sequential from the first day of
trial) appears in a parenthetical next to the ECF-generated page
number followed by the line number citation.
2

App-71
this was outside the scope of the parties’ Cortez
stipulation. (Id. at 200(918):22-25.) The Court noted
that while counsel’s statement regarding Cortez was
accurate, the stipulation did not discuss the Cortez
jury’s willfulness finding and as far as the Court was
aware the willfulness finding was not otherwise in
evidence. (Id. at 202(920):2-5.) Plaintiff’s opposition
does not argue that this evidence is elsewhere in the
record—the Court thus accepts that Plaintiff made a
statement of fact in his closing argument which was
not in the record. Trans Union, however, has not
shown how it was prejudiced by Plaintiff’s counsel’s
accurate statement regarding the Cortez jury’s
willfulness finding. Moreover, at the beginning of the
case, and again at the end, the Court instructed the
jury that their memory of the evidence controls, not
attorney argument. Under these circumstances, Trans
Union has failed to meet the high threshold necessary
to justify a new trial based on counsel’s statements
made during closing argument.
Trans Union’s motion for a new trial based on
Plaintiff’s counsels’ conduct at trial is therefore
DENIED.
C. The Damages Award
A willful violation of the FCRA entitles a
consumer to statutory damages ranging from $100 to
$1,000, as well as punitive damages, and attorney’s
fees and costs. See 15 U.S.C. § 1681n. Trans Union
insists that the statutory and punitive damages
awards must be set aside, or at a minimum, reduced.
1.

Statutory Damages

A court “must uphold a jury’s damages award
unless the amount is clearly not supported by the

App-72
evidence, or only based on speculation or guesswork.”
Guy v. City of San Diego, 608 F.3d 582, 585 (9th Cir.
2010) (internal citation and quotation marks omitted).
That is, “the jury’s finding of the amount of damages
[must be upheld] unless the amount is grossly
excessive or monstrous, clearly not supported by the
evidence, or only based on speculation or guesswork.”
Los Angeles Mem’l Coliseum Comm’n v. Nat’l Football
League, 791 F.2d 1356, 1360 (9th Cir. 1986) (internal
citation and quotation marks omitted). Here, the jury
awarded statutory damages of $984.22 per class
member which is within the statutory range of $100$1,000. See 15 U.S.C. § 1681n. Trans Union
nonetheless argues that the jury’s statutory damages
award was not supported by the evidence and is
grossly excessive.
Trans Union first argues that the statutory
damages award is not supported by substantial
evidence either on liability or as to harm to every class
member. Not so. As discussed above, the trial evidence
supported the jury’s conclusion that Trans Union’s
OFAC Alert practices violated three different FCRA
subsections. Trans Union’s insistence that the
aggregation of the statutory damages claim among the
three FCRA claims undermines the award is likewise
unavailing. Trans Union’s proposed verdict form did
not disaggregate the FCRA damages claims:
5. Do you find that the class is entitled to an
award of statutory damages?
___ Yes
___ No
___ There is no single answer that applies to
the entire class.

App-73
6. Do you find that the class is entitled to an
award of punitive damages?
___ Yes
___ No
___ There is no single answer that applies to
the entire class.
(Dkt. No. 261 at 4.)
At the final pretrial conference, the Court left the
door open for Trans Union to argue that the statutory
damages should be categorized in some way: “I’ll allow
the parties to argue when we have our charging
conference—is perhaps a verdict form that allows the
jury to give different amount of statutory damages
based on different groupings so the Defendants may
argue . . . well, if you’re going to rule against us, you
shouldn’t at least for those who no credit report was
sent, it should be a hundred.” (Dkt. No. 318 at 19:1422.) But Trans Union did not object at the charging
conference and therefore waived an objection to the
aggregation of statutory damages. See Yeti by Molly,
Ltd. v. Deckers Outdoor Corp., 259 F.3d 1101, 1109
(9th Cir. 2001) (“[Defendant] waived these contentions
[with the verdict form] by failing to raise them until
after the jury had rendered its verdict and was
discharged [because it had] ample opportunity to
object to errors in the form of the verdict” and was in
fact invited to raise any objections); see also Teutscher
v. Woodson, 835 F.3d 936, 950 (9th Cir. 2016)
(“because [plaintiff] agreed to the lump-sum verdict
form, [he] waived any argument that the jury’s verdict
should or could be parsed between its compensatory
components”). Further, the FCRA is clear: a willful
violation of any one of its prongs entitles a plaintiff to

App-74
a statutory damages award of $100 to $1,000. Thus,
even if the evidence is not sufficient as to each claim—
which it is—as long as it is sufficient as to one, the
jury’s award of less than $1,000 to each class member
is supported by substantial evidence. Here, however,
the evidence is sufficient as to each claim.
Alternatively, Trans Union insists that the award
is grossly excessive and should be reduced through
remittitur or constitutional review.
A remittitur is a substitution of the court’s
judgment for that of the jury regarding the
appropriate award of damages. The court
orders a remittitur when it believes the jury’s
award is unreasonable on the facts. A
constitutional reduction, on the other hand, is
a determination that the law does not permit
the award. Unlike a remittitur, which is
discretionary with the court . . . a court has a
mandatory
duty
to
correct
an
unconstitutionally excessive verdict so that it
conforms to the requirements of the due
process clause.
Oyarzo v. Tuolumne Fire Dist., No. 1:11-CV-01271SAB, 2014 WL 1757215, at *6 (E.D. Cal. Apr. 30, 2014)
(quoting Corpus v. Bennett, 430 F.3d 912, 917 (8th Cir.
2005)).
There is no basis for remittitur because, as noted,
the jury’s award is not unreasonable; to the contrary,
it is well-supported by the trial evidence. Trans Union
nonetheless urges that the statutory damages award
should be reduced to an amount no greater than its
OFAC-related revenue for 2011. To this end, Trans
Union offers the declaration of David Gilbert, Trans

App-75
Union’s Senior Vice President of Finance, which sets
forth Trans Union’s 2011 gross revenue for the OFAC
Alert product. (Dkt. No. 321-1.) Plaintiff’s motion to
strike Mr. Gilbert’s Declaration is GRANTED. (Dkt.
No. 327.) Trans Union cannot now supplement the
record with new evidence having made a strategic
decision not to introduce any evidence regarding its
financial status other than the stipulation regarding
its total net worth which was read to the jury during
the punitive damages phase. (Dkt. No. 285.)
In any event, even if the Court considered this
evidence, the Court would still exercise its discretion
to deny remittitur because the jury’s award of
statutory damages is supported by the evidence and
within the statutory range. Unlike other statutes
which contain statutory damages caps (such as the
Fair Debt Collection Practices Act (FDCPA) and the
Truth in Lending Act (TILA)), FCRA statutory
damages are not capped. See Saunders v. Equifax Info.
Servs., L.L.C., 469 F. Supp. 2d 343, 349 (E.D. Va.
2007). Trans Union’s argument that FCRA statutory
damages should be subject to a cap is for Congress not
this Court. See Bateman v. Am. Multi-Cinema, Inc.,
623 F.3d 708, 718 (9th Cir. 2010) (“the [FCRA] does
not place a cap on these damages in the case of class
actions, does not indicate any threshold at which
courts are free to award less than the minimum
statutory damages, and does not limit the number of
individuals that can be certified in a class or the
number of individual actions that can be brought
against a single merchant.”).
Nor is the damages award unconstitutionally
excessive. “A statutorily prescribed penalty violates

App-76
due process rights only where the penalty prescribed
is so severe and oppressive as to be wholly
disproportioned to the offense and obviously
unreasonable.” United States v. Citrin, 972 F.2d 1044,
1051 (9th Cir. 1992) (internal citation and quotation
marks omitted). Trans Union cites only one case
where a statutory damages award was reduced on
constitutional grounds. See Golan v. Veritas
Entertainment, No. 14-69 ERW, (E.D. Mo. Sept. 7,
2017). (Dkt. No. 334-1.) Golan, however, is inapposite.
The court there reduced a statutory damages award
under the Telephone Consumer Protection Act from
$1,621,246,500 to $32,424,930 on the grounds that an
award of over a billion and a half in damages was
“obviously unreasonable and wholly disproportionate
to the offense.” Not so here. The jury’s award of just
over $8 million in damages is a fraction of Golan’s
reduced damages award and is neither unreasonable
nor wholly disproportionate given the evidence
regarding Trans Union’s practices. 3
Golan noted that there was only one other case which had
commented on the constitutionality of a statutory damages
award: United States v. Dish Network LLC, 256 F. Supp. 3d 810,
2017 WL 2427297, *139-40 (C.D. Ill. 2017). In Dish, following a
bench trial, the court awarded $280 million in civil penalties and
statutory damages, $84 million of which was allocated towards
statutory damages under the TCPA. The court found that this
amount—which totaled 20 percent of Dish’s 2016 after-tax profits
of $1.4 billion, was appropriate and constitutionally
proportionate, reasonable, and consistent with due process”
because “Dish caused millions and millions of violations of the
Do-Not-Call Laws, [] Dish has minimized the significance of its
own errors in direct telemarketing and steadfastly denied any
responsibility . . . The injury to consumers, the disregard for the
law, and the steadfast refusal to accept responsibility require a
3

App-77
Trans Union’s reliance on Six (6) Mexican Workers
v. Arizona Citrus Growers, 904 F.2d 1301 (9th Cir.
1990), is misplaced. Six (6) Mexican Workers involved
a liquidated damages provision under the nowrepealed Farm Labor Contractor Registration Act, 7
U.S.C. § 2041 et seq., which stated that “the court may
award up to and including . . . actual damages, or
$500 for each violation, or other equitable relief.” Id.
at 1303 n.1 (quoting 7 U.S.C. § 2050a(b)). The Ninth
Circuit held that the district court abused its
discretion in awarding statutory damages of $100$500 for each violation because “[t]he award also
exceeds that necessary to enforce the Act or deter
future violations. When the class size is large, the
individual award will be reduced so that the total
award is not disproportionate.” Six (6) Mexican
Workers, 904 F.2d at 1309. This holding, however,
does not apply to FCRA cases. In Bateman, the Ninth
Circuit held that “[t]here is no language in the [the
FCRA], nor any indication in the legislative history,
that Congress provided for judicial discretion to
depart from the $100 to $1000 range where a district
judge finds that damages are disproportionate to
harm”; rather, “the plain text of the statute makes
absolutely clear that, in Congress’s judgment, the
$100 to $1000 range is proportionate and
appropriately compensates the consumer” and “[t]hat
proportionality does not change as more plaintiffs seek
relief.” Bateman, 623 F.3d at 719.
significant and substantial monetary award.” Id. at *139, 140.
The same reasoning applies to the statutory damages award here
which represents just over half a percent of Trans Union’s total
net worth.

App-78
The award here is within the statutory range;
indeed, it is not even the maximum award possible
under the FCRA. See Seungtae Kim v. BMW Fin.
Servs. NA, LLC, 142 F. Supp. 3d 935, 947 (C.D. Cal.
2015), aff’d sub nom. Kim v. BMW Fin. Servs. NA LLC,
No. 15-56801, 2017 WL 3225710 (9th Cir. July 31,
2017) (concluding that statutory damages award was
not excessive because the award was within the
statutory limits). The award is also proportionate to
the harm shown by the trial evidence. There is thus no
basis to set aside the statutory damages award.
2.

Punitive Damages

The FCRA allows punitive damages for willful
noncompliance with its provisions in such amount “as
the court may allow.” 15 U.S.C. § 1681n(a)(2). Here,
the jury awarded punitive damages of $6,353.08 per
class member which amounts to a total award of more
than $50 million. Trans Union objects to the punitive
damages verdict on multiple grounds.
a) Statutory Damages and Punitive
Damages are Proper
First, Trans Union insists that no punitive
damages are warranted because the jury awarded
statutory damages. Not so. Trans Union offers no
support for the proposition that because the class
received statutory damages they should not also
receive punitive damages despite the express
statutory statement that statutory and punitive
damages are available for willful violations. If
Congress had not envisioned cases in which both
would have been appropriate they would not have
included this language. The FCRA “allows for [a
punitive damages] award predicated on either

App-79
sufficient proof of actual damages or, in the
alternative, an award of statutory damages.”
Saunders, 469 F. Supp. 2d at 348 (collecting cases re:
the same).
b) The Jury Instruction was not in
Error
Second, Trans Union argues that the punitive
damages jury instruction was improper. The court
“has broad discretion” in formulating appropriate jury
instructions. United States v. Hayes, 794 F.2d 1348,
1351 (9th Cir.1986). Moreover, “a defendant is not
entitled to any particular form of an instruction so
long as the instructions given fairly and adequately
cover the defendant’s theories of defense.” United
States v. Solomon, 825 F.2d 1292, 1295 (9th Cir.1987).
The jury instruction stated in relevant part:
You may award punitive damages only if you
find that Trans Union’s conduct was in
reckless disregard of the rights of Plaintiff
and the Class. Conduct is in reckless
disregard of a plaintiff’s rights if, under the
circumstances,
it
reflects
complete
indifference to the plaintiff’s rights, or if the
defendant acts in the face of a perceived risk
that its actions will violate the plaintiff’s
rights under federal law.
(Dkt. No. 311 at 12(939):16-20.) Further, over
Plaintiff’s objection, the Court included the following
language: “In considering the amount of any punitive
damages, you may consider the purpose of the Fair
Credit Reporting Act, the degree of reprehensibility of
the defendant’s conduct, and the relationship of any
award of punitive damages to any actual harm

App-80
inflicted on Mr. Ramirez and the Class.” (Id. at
311(940):1-5.)
This instruction was based on the Ninth Circuit’s
Model Civil Jury Instruction 5.5 and the Supreme
Court’s guidance in Safeco Inc. Co. of Am. v. Burr, 551
U.S. 47 (2007). Trans Union’s insistence that the
FCRA demands proof of a higher level of culpability
than recklessness is inaccurate. As the Ninth Circuit
recently confirmed, “[t]he Supreme Court has clarified
that, under Section 1681n, willfulness reaches actions
taken in ‘reckless disregard of statutory duty,’ in
addition to actions ‘known to violate the Act.’” Syed v.
M-I, LLC, 853 F.3d 492, 503 (9th Cir. 2017) (quoting
Safeco, 551 U.S. at 56-57.) Under this standard, “[a]
party does not act in reckless disregard of the FCRA
‘unless the action is not only a violation under a
reasonable reading of the statute’s terms, but shows
that the company ran a risk of violating the law
substantially greater than the risk associated with a
reading that was merely careless.’” Syed, 853 F.3d at
503 (quoting Safeco, 551 U.S. at 69). Given this
guidance, the jury instruction was not inaccurate or
misleading. 4 See Masson v. New Yorker Magazine,
Inc., 85 F.3d 1394, 1397 (9th Cir. 1996) (“We review
Notably, at the punitive damages charging conference, Trans
Union’s only objection was to inclusion of the language “if the
defendant acts in the face of a perceived risk that its actions will
violate the plaintiff’s rights under federal law.” (Dkt. No. 310 at
204(922):2-8.) Likewise, to the extent that Trans Union now
objects that the jury awarded punitive damages on a per class
member basis rather than as a lump sum, Trans Union
previously agreed that the verdict form should award punitive
damages, if any, on a per class member basis. (Id. at 202(900):1825.)
4

App-81
challenges to the district court’s formulation of the
jury instructions for an abuse of discretion by
determining whether the instructions, considered as a
whole, were inadequate or misleading.”).
c) Trans
Union
Supplement the
Record Post-Trial

Cannot
Evidentiary

Third, Trans Union complains that even if some
amount of punitive damages is appropriate, the
amount should be reduced concomitant with Trans
Union’s 2011 net revenue for the OFAC Alert product.
The Court rejects this argument for the same reason
it rejected the argument when raised as to the
statutory damages award. Trans Union made a
strategic decision regarding what evidence it would
introduce during the punitive damages phase; that in
hindsight it wishes it could supplement the record
with additional evidence regarding the profitability of
the underlying product is not a basis for remittitur.
See Corpus, 430 F.3d at 917 (“The court orders a
remittitur when it believes the jury’s award is
unreasonable on the facts”).
d) The Punitive Damages are not
Constitutionally Excessive
Finally, Trans Union maintains that the punitive
damages award is unconstitutional. To determine the
constitutionality of an award of punitive damages, the
Court must refer to the following three guideposts
articulated by the Supreme Court:
(1) the degree of reprehensibility of the
defendant’s misconduct; (2) the disparity
between the actual or potential harm suffered
by the plaintiff and the punitive damages

App-82
award; (3) the difference between the
punitive damages awarded by the jury and
the civil penalties authorized or imposed in
comparable cases.
BMW v. Gore, 517 U.S. 559, 574 (1996).
1)

The
Reprehensibility
Trans Union’s Conduct

of

In accessing reprehensibility, courts generally
consider a number of factors, including (1) whether
the harm caused was physical as opposed to economic;
(2) whether the conduct demonstrated an indifference
to or a reckless disregard for the health or safety of
others; (3) whether the target of the conduct had
financial vulnerability; (4) whether the conduct
involved repeated actions or was an isolated incident;
and (5) whether the harm was the result of intentional
malice, trickery, or deceit, or mere accident. See State
Farm Mut. Auto. Ins. Co. v. Campbell, 538 U.S. 408,
419 (2003).
These factors, however, “have only marginal
relevance in the context of a consumer action” under
the FCRA. Saunders, 469 F. Supp. 2d at 351. Indeed,
“in FCRA cases, the first two factors in the State Farm
reprehensibility evaluation, namely whether the harm
was physical as opposed to economic and whether the
conduct evinced an indifference or reckless disregard
for the health and safety of others, are not typically
present because violations of the Act usually result in
‘only’ adverse economic, as opposed to physical, harm
to consumers in the form of adverse credit ratings, the
inability to obtain financial backing from various
economic institutions, actual out-of-pocket losses,
mental distress . . . “ Id. So too here. Despite Trans

App-83
Union’s continued protestations to the contrary, Mr.
Ramirez was harmed by Trans Union—he was unable
to co-purchase a vehicle with his wife, he endured
stress and anxiety trying to figure out why his credit
report showed that his name matched someone on the
OFAC list, and he and his wife cancelled a family trip
to Mexico because they were worried about traveling
outside the country under the circumstances. As to
whether Plaintiff was a financially vulnerable victim,
the Court finds that this factor weighs in Plaintiff’s
favor because the OFAC Alert product was designed
to provide information to lenders making consumer
credit decisions—individuals who are falsely flagged
as persons on the OFAC list are necessarily financially
vulnerable. The fourth factor—whether the conduct
involved repeated actions—is likewise satisfied. Trans
Union sent over 8000 individuals a letter during the
class period stating that they were a “potential match”
for someone on the OFAC list and the trial evidence
showed that not one of these individuals was actually
on the list. (Dkt. No. 294 at 116(491):6-13.) The final
factor, that the harm was the result of intentional
malice, trickery, or deceit rather than accident, is of
questionable relevance in an FCRA action given that
the FCRA allows punitive damages upon a willfulness
finding but without a finding of malice or evil motive.
See Cousin v. Trans Union Corp., 246 F.3d 359, 372
(5th Cir. 2001); Saunders, 469 F.Supp. 2d at 351
(citing Dalton v. Capital Associated Indus., Inc., 257
F.3d 409, 418 (4th Cir. 2001)).
In FCRA cases, the reprehensibility analysis
should focus on factors beyond those set forth in State
Farm. See Saunders, 469 F.Supp. 2d at 351-52
(considering factors unique to a consumer credit

App-84
scenario as part of reprehensibility analysis). Here,
the reprehensibility analysis should consider Trans
Union’s actions following the Third Circuit’s Cortez
decision. In the summer of 2010, the Third Circuit
explicitly advised Trans Union that the same practices
at issue here—the name-only matching protocol and
the failure to provide clear and accurate disclosure of
OFAC data and consumer’s rights—ran afoul of the
FRCA. See Cortez v. Trans Union, LLC, 617 F.3d 688
(3rd Cir. 2010). Trans Union nonetheless continued to
sell its OFAC alert product using name-only matching
criteria through the class period and beyond, choosing
to merely insert the word “potential” in front of “OFAC
NAME SCREEN ALERT.” Further, Trans Union’s
disclosures throughout the class period continued to
fail to include the OFAC information, and instead, this
information was provided separately in a confusing
format which failed to advise consumers how to
dispute the accuracy of the OFAC Alert. Equally
troublingly, Trans Union’s General Counsel
misadvised the United States Department of Treasury
regarding the contents of the disclosure by
erroneously ensuring Treasury that the disclosures
were “accompanied by instructions on how the
consumer can obtain further information from Trans
Union about our OFAC Name Screen service, and how
to request Trans Union block the return of a potential
match message on future transactions.” (Compare
Trial Ex. 35 (letter to Treasury) with Dkt. No. 294 at
160(535):16-121(536):12 (trial testimony of Trans
Union witness Michael O’Connell conceding that the
OFAC letter Trans Union sent to consumers does not
contain the information contained in the Treasury
letter ).) And perhaps most tellingly, Trans Union to

App-85
this day insists that its OFAC Alert practice
“benefitted” the consumers it had falsely labeled as
individuals on the OFAC list. (Dkt. No. 294 at
170(545):17-20 (testimony of Trans Union witness
Michael O’Connell, “Q: It’s your testimony that the
members of this class who were identified as being a
hit on the OFAC list were benefited by Trans Union’s
practices. A: Yes.”). This cumulative conduct is
sufficiently egregious to satisfy the constitutional
reprehensibility requirement. As the Third Circuit
held in Cortez when it upheld the punitive damages
award against Trans Union there:
the gravity of harm that could result from
Trans Union’s “match” of Cortez with an
individual on a “terrorist” list cannot be over
stated. This is especially true because Trans
Union’s subscribers rely on the accuracy of
the detailed personal information Trans
Union provides. Given the severe potential
consequences of such an association, Trans
Union’s failure to take the utmost care in
ensuring the information’s accuracy—at the
very least, comparing birth dates when they
are available—is reprehensible.
Cortez, 617 F.3d at 723. That Trans Union continued
to use the same name-only match—merely inserting
the word “potential” before match—after the Third
Circuit labeled such conduct reprehensible and upheld
a $100,000 individual punitive damages award is
more than sufficient to justify a punitive damages
award of $6,353.08 per class member.

App-86
2)

The Relationship Between
Statutory
and
Punitive
Damages

Next, the Court at looks the disparity between the
harm suffered by the plaintiff and the punitive
damages award. See BMW, 517 U.S. at 574. Although
“there are no rigid benchmarks that a punitive
damages award may not surpass,” courts have
generally found excessive ratios of punitive damages
to compensatory damages of 145:1. State Farm, 538
U.S. at 425. The Supreme Court has stated that
“single-digit multipliers are more likely to comport
with due process.” Id. Here, the ratio between
statutory and punitive damages is 6:1. Trans Union’s
argument that the ratio is actually $60 million to zero
because Mr. Ramirez was not actually injured ignores
the psychic harm associated with being falsely labeled
as an individual on the OFAC list, as well as the harm
inherent in a consumer having to take steps to have
his or her name removed from Trans Union’s OFAC
Alert product. Trans Union’s argument also ignores
that Congress has charged credit reporting agencies
such as Trans Union with standards of care with
respect to consumer data that the trial evidence
showed Trans Union consistently ignored. The 6:1
ratio here is fully within constitutional limits. See
Saunders v. Branch Banking And Tr. Co. Of VA, 526
F.3d 142, 154 (4th Cir. 2008) (approving an 80:1
punitive to compensatory damages ratio in an FCRA
action); see also Arizona v. ASARCO LLC, 773 F.3d
1050, 1055 (9th Cir. 2014) (upholding jury verdict of
$300,000 in punitive damages and $1 in nominal
damages noting that there is no “bright-line ratio
which a punitive damages award cannot exceed” and

App-87
a higher ratio may be appropriate even where there
are minimal economic damages if the conduct is
“especially egregious”).
3)

Difference between Punitive
Damages and Civil Penalties
or Comparable Cases

Finally, State Farm requires the Court to consider
the disparity between the punitive damages award
and the “civil penalties authorized or imposed in
comparable cases.” State Farm, 538 U.S. at 428. Under
the FCRA, the maximum civil penalty the Federal
Trade Commission can seek for knowing violations of
the FCRA is $2,500 per violation. 15 U.S.C.
§ 1681s(a)(2)(A). “This limit [however] is not
applicable to actions brought under the FCRA by
private citizens” and is thus “not particularly helpful
in assessing the constitutionality of the punitive
damage award.” Saunders, 469 F. Supp. 2d at 353
(internal citation and quotation marks omitted). This
third guidepost thus has little relevance here. See
Cortez, 617 F.3d at 724 (“the third guidepost is not
useful in the analysis of punitive damages here as
there is no ‘truly comparable’ civil penalty to a FCRA
punitive damages award.”).
***
Trans Union’s objection to the punitive damages
award is essentially an argument that punitive
damages should not be allowed on a class-wide basis
in FCRA cases. But that is not the law. See Bateman
v. Am. Multi-Cinema, Inc., 623 F.3d 708, 723 (9th Cir.
2010) (“To limit class availability merely on the basis
of ‘enormous’ potential liability that Congress
explicitly provided for would subvert congressional

App-88
intent.”). Trans Union would likely have no objection,
or at least a more muted objection, to a $6,000
individual punitive damages award—it is just the
aggregate number that it finds so outrageous. “If the
size of a defendant’s potential liability alone was a
sufficient reason to deny class certification, however,
the very purpose of Rule 23(b)(3)—to allow integration
of numerous small individual claims into a single
powerful unit—would be substantially undermined.”
Id. at 722 (internal citation and quotation marks
omitted).
The Court thus DENIES Trans Union’s request
for a remittitur or new trial with respect to punitive
damages.
D. Trans Union’s Renewed Objections
Regarding Class Certification
Finally, Trans Union yet again challenges class
treatment of Plaintiff’s claims. The Court has
repeatedly rejected these objections and does so again.
If anything, the trial evidence demonstrated that class
treatment of these claims is even more appropriate
than appeared at the class certification stage. Trans
Union falsely identified every class member as a
potential match and every class member received an
incomplete disclosure which failed to properly advise
them of their rights to challenge the OFAC
information in their file.
Trans Union’s argument that the class size should
be “corrected” to reflect only those class members who
actually received notice is unavailing. Rule 23
requires “the best notice that is practicable under the
circumstances” and it does not limit the class to only
those who received notice. See In re Integra Realty

App-89
Res., Inc., 354 F.3d 1246, 1260 (10th Cir. 2004). To the
extent that notice to some of the class members was
returned, Plaintiff represents that he is committed to
undertaking additional efforts to provide notice of the
damages award to affected class members. Further, as
Plaintiff notes, Trans Union, which maintains a
consumer credit file on each of these class members, is
likely in the best position to provide up-to-date
address information for class members. Trans Union’s
argument that the judgment should be amended to
only cover those who received notice is likewise
misplaced. Rule 23 requires judgment be entered as to
those class members to whom notice was sent. See
Fed. R. Civ. Pro. 23(c)(3)(B) (“the judgment in a class
action must . . . include and specify or describe those
to whom the Rule 23(c)(2) notice was directed, who
have not requested exclusion, and whom the court
finds to be class members.”); see also Phillips
Petroleum Co. v. Shutts, 472 U.S. 797, 812 (1985)
(holding that “a fully descriptive notice [] sent firstclass mail to each class member, with an explanation
of the right to ‘opt out,’ satisfies due process”). All such
class members are deemed bound by the judgment.
See Phillips, 472 U.S. at 811-12 (holding that absent
class members are bound to the judgment as long as
they are afforded the minimal procedural due process
protections of “notice plus an opportunity to be heard
and participate in the litigation, whether in person or
through counsel.”) However, the Court will grant
Trans Union’s unopposed request to amend the form
of the judgment to conform to the language of Rule
23(c)(3)(B).

App-90
CONCLUSION
Trans Union’s Motion for Judgment as a Matter
of Law or a New Trial is DENIED. The jury’s verdict
is supported by substantial evidence and there is no
basis to set aside the damages award.
Plaintiff shall file an amended proposed form of
judgment which complies with Rule 23(c)(3)(B) by
November 13, 2017.
The Court sua sponte extends the dates for the
parties’ briefing regarding Plaintiff’s motion for
attorneys’ fees by 10 days. (Dkt. No. 340.)
This Order disposes of Docket Nos. 321 and 327.
IT IS SO ORDERED.
Dated: November 7, 2017
[handwritten: signature]
JACQUELINE SCOTT CORLEY
United States Magistrate Judge

App-91
Appendix D
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS AND
FEDERAL RULE
U.S. Const. art. III, §§1-2
Section 1
The judicial Power of the United States, shall be
vested in one supreme Court, and in such inferior
Courts as the Congress may from time to time ordain
and establish. The Judges, both of the supreme and
inferior Courts, shall hold their Offices during good
Behaviour, and shall, at stated Times, receive for their
Services, a Compensation, which shall not be
diminished during their Continuance in Office.
Section 2
The judicial Power shall extend to all Cases, in Law
and Equity, arising under this Constitution, the Laws
of the United States, and Treaties made, or which
shall be made, under their Authority;—to all Cases
affecting Ambassadors, other public Ministers and
Consuls;—to all Cases of admiralty and maritime
Jurisdiction;—to Controversies to which the United
States shall be a Party;—to Controversies between
two or more States;—between a State and Citizens of
another State,—between Citizens of different
States,—between Citizens of the same State claiming
Lands under Grants of different States, and between
a State, or the Citizens thereof, and foreign States,
Citizens or Subjects.
In all Cases affecting Ambassadors, other public
Ministers and Consuls, and those in which a State
shall be Party, the supreme Court shall have original

App-92
Jurisdiction. In all the other Cases before mentioned,
the supreme Court shall have appellate Jurisdiction,
both as to Law and Fact, with such Exceptions, and
under such Regulations as the Congress shall make.
The Trial of all Crimes, except in Cases of
Impeachment, shall be by Jury; and such Trial shall
be held in the State where the said Crimes shall have
been committed; but when not committed within any
State, the Trial shall be at such Place or Places as the
Congress may by Law have directed.
U.S. Const. amend. XIV, §1
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they
reside. No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction
the equal protection of the laws.
15 U.S.C. §1681e
(a) Identity and purposes of credit users
Every consumer reporting agency shall maintain
reasonable procedures designed to avoid violations of
section 1681c of this title and to limit the furnishing of
consumer reports to the purposes listed under section
1681b of this title. These procedures shall require that
prospective users of the information identify
themselves, certify the purposes for which the
information is sought, and certify that the information
will be used for no other purpose. Every consumer
reporting agency shall make a reasonable effort to

App-93
verify the identity of a new prospective user and the
uses certified by such prospective user prior to
furnishing such user a consumer report. No consumer
reporting agency may furnish a consumer report to
any person if it has reasonable grounds for believing
that the consumer report will not be used for a purpose
listed in section 1681b of this title.
(b) Accuracy of report
Whenever a consumer reporting agency prepares a
consumer report it shall follow reasonable procedures
to assure maximum possible accuracy of the
information concerning the individual about whom
the report relates.
(c) Disclosure of consumer reports by users
allowed
A consumer reporting agency may not prohibit a user
of a consumer report furnished by the agency on a
consumer from disclosing the contents of the report to
the consumer, if adverse action against the consumer
has been taken by the user based in whole or in part
on the report.
(d) Notice to
information

users

and

furnishers

of

(1) Notice
requirement.—A
consumer
reporting agency shall provide to any person—
(A) who regularly and in the ordinary course
of business furnishes information to the
agency with respect to any consumer; or
(B) to whom a consumer report is provided by
the agency;

App-94
a notice of such person’s responsibilities under
this subchapter.
(2) Content of notice.—The Bureau shall
prescribe the content of notices under paragraph
(1), and a consumer reporting agency shall be in
compliance with this subsection if it provides a
notice under paragraph (1) that is substantially
similar to the Bureau prescription under this
paragraph.
(e) Procurement of consumer report for resale
(1) Disclosure.—A person may not procure a
consumer report for purposes of reselling the
report (or any information in the report) unless
the person discloses to the consumer reporting
agency that originally furnishes the report—
(A) the identity of the end-user of the report
(or information); and
(B) each permissible purpose under section
1681b of this title for which the report is
furnished to the end-user of the report (or
information).
(2) Responsibilities
of
procurers
for
resale.—A person who procures a consumer
report for purposes of reselling the report (or any
information in the report) shall—
(A) establish and comply with reasonable
procedures designed to ensure that the report
(or information) is resold by the person only
for a purpose for which the report may be
furnished under section 1681b of this title,
including by requiring that each person to
which the report (or information) is resold

App-95
and that resells or provides the report (or
information) to any other person—
(i) identifies each end user of the resold
report (or information);
(ii) certifies each purpose for which the
report (or information) will be used; and
(iii) certifies that the report (or
information) will be used for no other
purpose; and
(B) before reselling the report, make
reasonable efforts to verify the identifications
and certifications made under subparagraph
(A).
(3) Resale of consumer report to a Federal
agency or department.—Notwithstanding
paragraph (1) or (2), a person who procures a
consumer report for purposes of reselling the
report (or any information in the report) shall not
disclose the identity of the end-user of the report
under paragraph (1) or (2) if—
(A) the end user is an agency or department
of the United States Government which
procures the report from the person for
purposes of determining the eligibility of the
consumer concerned to receive access or
continued access to classified information (as
defined in section 1681b(b)(4)(E)(i) of this
title); and
(B) the agency or department certifies in
writing to the person reselling the report that
nondisclosure is necessary to protect
classified information or the safety of persons

App-96
employed by or contracting with, or
undergoing investigation for work or
contracting with the agency or department.
15 U.S.C. §1681g
(a) Information
recipients

on

file;

sources;

report

Every consumer reporting agency shall, upon request,
and subject to section 1681h(a)(1) of this title, clearly
and accurately disclose to the consumer:
(1) All information in the consumer’s file at the
time of the request, except that—
(A) if the consumer to whom the file relates
requests that the first 5 digits of the social
security number (or similar identification
number) of the consumer not be included in
the disclosure and the consumer reporting
agency has received appropriate proof of the
identity of the requester, the consumer
reporting agency shall so truncate such
number in such disclosure; and
(B) nothing in this paragraph shall be
construed to require a consumer reporting
agency to disclose to a consumer any
information concerning credit scores or any
other risk scores or predictors relating to the
consumer.
(2) The sources of the information; except that
the sources of information acquired solely for use
in preparing an investigative consumer report
and actually used for no other purpose need not
be disclosed: Provided, That in the event an action
is brought under this subchapter, such sources

App-97
shall be available to the plaintiff under
appropriate discovery procedures in the court in
which the action is brought.
(3)(A) Identification of each person (including
each end-user identified under section 1681e(e)(1)
of this title) that procured a consumer report—
(i) for employment purposes, during the
2-year period preceding the date on
which the request is made; or
(ii) for any other purpose, during the 1year period preceding the date on which
the request is made.
(B) An identification of a person under
subparagraph (A) shall include—
(i) the name of the person or, if
applicable, the trade name (written in
full) under which such person conducts
business; and
(ii) upon request of the consumer, the
address and telephone number of the
person.
(C) Subparagraph (A) does not apply if—
(i) the end user is an agency or
department of the United States
Government that procures the report
from the person for purposes of
determining the eligibility of the
consumer to whom the report relates to
receive access or continued access to
classified information (as defined in
section 1681b(b)(4)(E)(i) of this title); and

App-98
(ii) the head of the agency or department
makes a written finding as prescribed
under section 1681b(b)(4)(A) of this title.
(4) The dates, original payees, and amounts of
any checks upon which is based any adverse
characterization of the consumer, included in the
file at the time of the disclosure.
(5) A record of all inquiries received by the
agency during the 1-year period preceding the
request that identified the consumer in
connection with a credit or insurance transaction
that was not initiated by the consumer.
(6) If the consumer requests the credit file and
not the credit score, a statement that the
consumer may request and obtain a credit score.
(b) Exempt information
The requirements of subsection (a) respecting the
disclosure of sources of information and the recipients
of consumer reports do not apply to information
received or consumer reports furnished prior to the
effective date of this subchapter except to the extent
that the matter involved is contained in the files of the
consumer reporting agency on that date.
(c) Summary of rights to obtain and dispute
information in consumer reports and to obtain
credit scores
(1) Commission 1
required

1

summary

So in original. Probably should be “Bureau”.

of

rights

App-99
(A) In general
The Commission1 shall prepare a model
summary of the rights of consumers under
this subchapter.
(B) Content of summary
The summary of rights prepared under
subparagraph (A) shall include a description
of—
(i) the right of a consumer to obtain a
copy of a consumer report under
subsection (a) from each consumer
reporting agency;
(ii) the frequency and circumstances
under which a consumer is entitled to
receive a consumer report without charge
under section 1681j of this title;
(iii) the right of a consumer to dispute
information in the file of the consumer
under section 1681i of this title;
(iv) the right of a consumer to obtain a
credit score from a consumer reporting
agency, and a description of how to obtain
a credit score;
(v) the method by which a consumer can
contact, and obtain a consumer report
from, a consumer reporting agency
without charge, as provided in the
regulations of the Bureau prescribed
under section 211(c) of the Fair and
Accurate Credit Transactions Act of
2003; and

App-100
(vi) the method by which a consumer can
contact, and obtain a consumer report
from, a consumer reporting agency
described in section 1681a(w) of this title,
as provided in the regulations of the
Bureau
prescribed
under
section
1681j(a)(1)(C) of this title.
(C) Availability of summary of rights
The Commission1 shall—
(i) actively publicize the availability of
the summary of rights prepared under
this paragraph;
(ii) conspicuously post on its Internet
website the availability of such summary
of rights; and
(iii) promptly make such summary of
rights available to consumers, on
request.
(2) Summary of rights required to be
included with agency disclosures
A consumer reporting agency shall provide to a
consumer, with each written disclosure by the
agency to the consumer under this section—
(A) the summary of rights prepared by the
Bureau under paragraph (1);
(B) in the case of a consumer reporting
agency described in section 1681a(p) of this
title, a toll-free telephone number established
by the agency, at which personnel are
accessible to consumers during normal
business hours;

App-101
(C) a list of all Federal agencies responsible
for enforcing any provision of this subchapter,
and the address and any appropriate phone
number of each such agency, in a form that
will assist the consumer in selecting the
appropriate agency;
(D) a statement that the consumer may have
additional rights under State law, and that
the consumer may wish to contact a State or
local consumer protection agency or a State
attorney general (or the equivalent thereof) to
learn of those rights; and
(E) a statement that a consumer reporting
agency is not required to remove accurate
derogatory information from the file of a
consumer, unless the information is outdated
under section 1681c of this title or cannot be
verified.
(d) Summary of rights of identity theft victims
(1) In general
The Commission,1 in consultation with the
Federal banking agencies and the National Credit
Union Administration, shall prepare a model
summary of the rights of consumers under this
subchapter with respect to the procedures for
remedying the effects of fraud or identity theft
involving credit, an electronic fund transfer, or an
account or transaction at or with a financial
institution or other creditor.

App-102
(2) Summary
information

of

rights

and

contact

Beginning 60 days after the date on which the
model summary of rights is prescribed in final
form by the Bureau pursuant to paragraph (1), if
any consumer contacts a consumer reporting
agency and expresses a belief that the consumer
is a victim of fraud or identity theft involving
credit, an electronic fund transfer, or an account
or transaction at or with a financial institution or
other creditor, the consumer reporting agency
shall, in addition to any other action that the
agency may take, provide the consumer with a
summary of rights that contains all of the
information required by the Bureau under
paragraph (1), and information on how to contact
the Bureau to obtain more detailed information.
(e) Information available to victims
(1) In general
For the purpose of documenting fraudulent
transactions resulting from identity theft, not
later than 30 days after the date of receipt of a
request from a victim in accordance with
paragraph (3), and subject to verification of the
identity of the victim and the claim of identity
theft in accordance with paragraph (2), a business
entity that has provided credit to, provided for
consideration products, goods, or services to,
accepted payment from, or otherwise entered into
a commercial transaction for consideration with,
a person who has allegedly made unauthorized
use of the means of identification of the victim,
shall provide a copy of application and business

App-103
transaction records in the control of the business
entity, whether maintained by the business entity
or by another person on behalf of the business
entity, evidencing any transaction alleged to be a
result of identity theft to—
(A) the victim;
(B) any Federal, State, or local government
law enforcement agency or officer specified by
the victim in such a request; or
(C) any
law
enforcement
agency
investigating the identity theft and
authorized by the victim to take receipt of
records provided under this subsection.
(2) Verification of identity and claim
Before a business entity provides any information
under paragraph (1), unless the business entity,
at its discretion, otherwise has a high degree of
confidence that it knows the identity of the victim
making a request under paragraph (1), the victim
shall provide to the business entity—
(A) as proof of positive identification of the
victim, at the election of the business entity—
(i) the presentation of a governmentissued identification card;
(ii) personally identifying information of
the same type as was provided to the
business entity by the unauthorized
person; or
(iii) personally identifying information
that the business entity typically
requests from new applicants or for new

App-104
transactions, at the time of the victim’s
request for information, including any
documentation described in clauses (i)
and (ii); and
(B) as proof of a claim of identity theft, at the
election of the business entity—
(i) a copy of a police report evidencing
the claim of the victim of identity theft;
and
(ii) a properly completed—
(I) copy of a standardized affidavit
of identity theft developed and made
available by the Bureau; or
(II) an 2 affidavit of fact that is
acceptable to the business entity for
that purpose.
(3) Procedures
The request of a victim under paragraph (1)
shall—
(A) be in writing;
(B) be mailed to an address specified by the
business entity, if any; and
(C) if asked by the business entity, include
relevant information about any transaction
alleged to be a result of identity theft to
facilitate compliance with this section
including—

2

So in original. The word “an” probably should not appear.

App-105
(i) if known by the victim (or if readily
obtainable by the victim), the date of the
application or transaction; and
(ii) if known by the victim (or if readily
obtainable by the victim), any other
identifying information such as an
account or transaction number.
(4) No charge to victim
Information required to be provided under
paragraph (1) shall be so provided without charge.
(5) Authority
information

to

decline

to

provide

A business entity may decline to provide
information under paragraph (1) if, in the exercise
of good faith, the business entity determines
that—
(A) this subsection does
disclosure of the information;

not

require

(B) after reviewing the information provided
pursuant to paragraph (2), the business
entity does not have a high degree of
confidence in knowing the true identity of the
individual requesting the information;
(C) the request for the information is based
on a misrepresentation of fact by the
individual requesting the information
relevant to the request for information; or
(D) the information requested is Internet
navigational data or similar information
about a person’s visit to a website or online
service.

App-106
(6) Limitation on liability
Except as provided in section 1681s of this title,
sections 1681n and 1681o of this title do not apply
to any violation of this subsection.
(7) Limitation on civil liability
No business entity may be held civilly liable under
any provision of Federal, State, or other law for
disclosure, made in good faith pursuant to this
subsection.
(8) No new recordkeeping obligation
Nothing in this subsection creates an obligation
on the part of a business entity to obtain, retain,
or maintain information or records that are not
otherwise required to be obtained, retained, or
maintained in the ordinary course of its business
or under other applicable law.
(9) Rule of construction
(A) In general
No provision of subtitle A of title V of Public
Law 106-102, prohibiting the disclosure of
financial information by a business entity to
third parties shall be used to deny disclosure
of information to the victim under this
subsection.
(B) Limitation
Except as provided in subparagraph (A),
nothing in this subsection permits a business
entity to disclose information, including
information to law enforcement under
subparagraphs (B) and (C) of paragraph (1),
that the business entity is otherwise

App-107
prohibited from disclosing under any other
applicable provision of Federal or State law.
(10) Affirmative defense
In any civil action brought to enforce this
subsection, it is an affirmative defense (which the
defendant must establish by a preponderance of
the evidence) for a business entity to file an
affidavit or answer stating that—
(A) the business entity has made a
reasonably diligent search of its available
business records; and
(B) the records requested under this
subsection do not exist or are not reasonably
available.
(11) Definition of victim
For purposes of this subsection, the term “victim”
means a consumer whose means of identification
or financial information has been used or
transferred (or has been alleged to have been used
or transferred) without the authority of that
consumer, with the intent to commit, or to aid or
abet, an identity theft or a similar crime.
(12) Effective date
This subsection shall become effective 180 days
after December 4, 2003.
(13) Effectiveness study
Not later than 18 months after December 4, 2003,
the Comptroller General of the United States
shall submit a report to Congress assessing the
effectiveness of this provision.

App-108
(f) Disclosure of credit scores
(1) In general
Upon the request of a consumer for a credit score,
a consumer reporting agency shall supply to the
consumer a statement indicating that the
information and credit scoring model may be
different than the credit score that may be used
by the lender, and a notice which shall include—
(A) the current credit score of the consumer
or the most recent credit score of the
consumer that was previously calculated by
the credit reporting agency for a purpose
related to the extension of credit;
(B) the range of possible credit scores under
the model used;
(C) all of the key factors that adversely
affected the credit score of the consumer in
the model used, the total number of which
shall not exceed 4, subject to paragraph (9);
(D) the date on which the credit score was
created; and
(E) the name of the person or entity that
provided the credit score or credit file upon
which the credit score was created.
(2) Definitions
For purposes of this subsection, the following
definitions shall apply:
(A) Credit score
The term “credit score”—
(i) means a numerical value or a
categorization derived from a statistical

App-109
tool or modeling system used by a person
who makes or arranges a loan to predict
the likelihood of certain credit behaviors,
including default (and the numerical
value or the categorization derived from
such analysis may also be referred to as
a “risk predictor” or “risk score”); and
(ii) does not include—
(I) any mortgage score or rating of
an automated underwriting system
that considers one or more factors in
addition to credit information,
including the loan to value ratio, the
amount of down payment, or the
financial assets of a consumer; or
(II) any other elements of
underwriting
process
underwriting decision.

the
or

(B) Key factors
The term “key factors” means all relevant
elements or reasons adversely affecting the
credit score for the particular individual,
listed in the order of their importance based
on their effect on the credit score.
(3) Timeframe and manner of disclosure
The information required by this subsection shall
be provided in the same timeframe and manner as
the information described in subsection (a).

App-110
(4) Applicability to certain uses
This subsection shall not be construed so as to
compel a consumer reporting agency to develop or
disclose a score if the agency does not—
(A) distribute scores that are used in
connection with residential real property
loans; or
(B) develop scores that assist credit
providers in understanding the general credit
behavior of a consumer and predicting the
future credit behavior of the consumer.
(5) Applicability to credit scores developed
by another person
(A) In general
This subsection shall not be construed to
require a consumer reporting agency that
distributes credit scores developed by another
person or entity to provide a further
explanation of them, or to process a dispute
arising pursuant to section 1681i of this title,
except that the consumer reporting agency
shall provide the consumer with the name
and address and website for contacting the
person or entity who developed the score or
developed the methodology of the score.
(B) Exception
This paragraph shall not apply to a consumer
reporting agency that develops or modifies
scores that are developed by another person
or entity.

App-111
(6) Maintenance
required

of

credit

scores

not

This subsection shall not be construed to require
a consumer reporting agency to maintain credit
scores in its files.
(7) Compliance in certain cases

In complying with this subsection, a consumer
reporting agency shall—
(A) supply the consumer with a credit score
that is derived from a credit scoring model
that is widely distributed to users by that
consumer reporting agency in connection
with residential real property loans or with a
credit score that assists the consumer in
understanding the credit scoring assessment
of the credit behavior of the consumer and
predictions about the future credit behavior
of the consumer; and
(B) a statement indicating that the
information and credit scoring model may be
different than that used by the lender.
(8) Fair and reasonable fee
A consumer reporting agency may charge a fair
and reasonable fee, as determined by the Bureau,
for providing the information required under this
subsection.
(9) Use of enquiries as a key factor
If a key factor that adversely affects the credit
score of a consumer consists of the number of
enquiries made with respect to a consumer report,
that factor shall be included in the disclosure

App-112
pursuant to paragraph (1)(C) without regard to
the numerical limitation in such paragraph.
(g) Disclosure of
mortgage lenders

credit

scores

by certain

(1) In general
Any person who makes or arranges loans and who
uses a consumer credit score, as defined in
subsection (f), in connection with an application
initiated or sought by a consumer for a closed end
loan or the establishment of an open end loan for
a consumer purpose that is secured by 1 to 4 units
of residential real property (hereafter in this
subsection referred to as the “lender”) shall
provide the following to the consumer as soon as
reasonably practicable:
(A) Information
subsection (f)

required

under

(i) In general
A copy of the information identified in
subsection (f) that was obtained from a
consumer reporting agency or was
developed and used by the user of the
information.
(ii) Notice under subparagraph (D)
In addition to the information provided to
it by a third party that provided the
credit score or scores, a lender is only
required to provide the notice contained
in subparagraph (D).

App-113
(B) Disclosures in case of automated
underwriting system
(i) In general
If a person that is subject to this
subsection
uses
an
automated
underwriting system to underwrite a
loan, that person may satisfy the
obligation to provide a credit score by
disclosing a credit score and associated
key factors supplied by a consumer
reporting agency.
(ii) Numerical credit score
However, if a numerical credit score is
generated by an automated underwriting
system used by an enterprise, and that
score is disclosed to the person, the score
shall be disclosed to the consumer
consistent with subparagraph (C).
(iii) Enterprise defined
For purposes of this subparagraph, the
term “enterprise” has the same meaning
as in paragraph (6) of section 4502 of
Title 12.
(C) Disclosures of credit scores not
obtained from a consumer reporting
agency
A person that is subject to the provisions of
this subsection and that uses a credit score,
other than a credit score provided by a
consumer reporting agency, may satisfy the
obligation to provide a credit score by
disclosing a credit score and associated key

App-114
factors supplied by a consumer reporting
agency.
(D) Notice to home loan applicants
A copy of the following notice, which shall
include the name, address, and telephone
number of each consumer reporting agency
providing a credit score that was used:
NOTICE TO THE HOME LOAN
APPLICANT
“In connection with your application for a
home loan, the lender must disclose to you the
score that a consumer reporting agency
distributed to users and the lender used in
connection with your home loan, and the key
factors affecting your credit scores.
“The credit score is a computer generated
summary calculated at the time of the
request and based on information that a
consumer reporting agency or lender has on
file. The scores are based on data about your
credit history and payment patterns. Credit
scores are important because they are used to
assist the lender in determining whether you
will obtain a loan. They may also be used to
determine what interest rate you may be
offered on the mortgage. Credit scores can
change over time, depending on your conduct,
how your credit history and payment patterns
change, and how credit scoring technologies
change.
“Because the score is based on information in
your credit history, it is very important that

App-115
you review the credit-related information
that is being furnished to make sure it is
accurate. Credit records may vary from one
company to another.
“If you have questions about your credit score
or the credit information that is furnished to
you, contact the consumer reporting agency
at the address and telephone number
provided with this notice, or contact the
lender, if the lender developed or generated
the credit score. The consumer reporting
agency plays no part in the decision to take
any action on the loan application and is
unable to provide you with specific reasons for
the decision on a loan application.
“If you have questions concerning the terms
of the loan, contact the lender.”.
(E) Actions not required under this
subsection
This subsection shall not require any person
to—
(i) explain the information provided
pursuant to subsection (f);
(ii) disclose any information other than
a credit score or key factors, as defined in
subsection (f);
(iii) disclose any credit score or related
information obtained by the user after a
loan has closed;
(iv) provide more than 1 disclosure per
loan transaction; or

App-116
(v) provide the disclosure required by
this subsection when another person has
made the disclosure to the consumer for
that loan transaction.
(F) No obligation for content
(i) In general

The obligation of any person pursuant to
this subsection shall be limited solely to
providing a copy of the information that
was received from the consumer
reporting agency.
(ii) Limit on liability
No person has liability under this
subsection for the content of that
information or for the omission of any
information within the report provided
by the consumer reporting agency.
(G) Person
enterprise

defined

as

excluding

As used in this subsection, the term “person”
does not include an enterprise (as defined in
paragraph (6) of section 4502 of Title 12).
(2) Prohibition on disclosure clauses null
and void
(A) In general
Any provision in a contract that prohibits the
disclosure of a credit score by a person who
makes or arranges loans or a consumer
reporting agency is void.

App-117
(B) No liability for disclosure under this
subsection
A lender shall not have liability under any
contractual provision for disclosure of a credit
score pursuant to this subsection.
15 U.S.C. §1681n
(a) In general
Any person who willfully fails to comply with any
requirement imposed under this subchapter with
respect to any consumer is liable to that consumer in
an amount equal to the sum of—
(1)(A) any actual damages sustained by the
consumer as a result of the failure or damages
of not less than $100 and not more than
$1,000; or
(B) in the case of liability of a natural person
for obtaining a consumer report under false
pretenses or knowingly without a permissible
purpose, actual damages sustained by the
consumer as a result of the failure or $1,000,
whichever is greater;
(2) such amount of punitive damages as the court
may allow; and
(3) in the case of any successful action to enforce
any liability under this section, the costs of the
action together with reasonable attorney’s fees as
determined by the court.
(b) Civil liability for knowing noncompliance
Any person who obtains a consumer report from a
consumer reporting agency under false pretenses or
knowingly without a permissible purpose shall be

App-118
liable to the consumer reporting agency for actual
damages sustained by the consumer reporting agency
or $1,000, whichever is greater.
(c) Attorney’s fees
Upon a finding by the court that an unsuccessful
pleading, motion, or other paper filed in connection
with an action under this section was filed in bad faith
or for purposes of harassment, the court shall award
to the prevailing party attorney’s fees reasonable in
relation to the work expended in responding to the
pleading, motion, or other paper.
(d) Clarification of willful noncompliance
For the purposes of this section, any person who
printed an expiration date on any receipt provided to
a consumer cardholder at a point of sale or transaction
between December 4, 2004, and June 3, 2008, but
otherwise complied with the requirements of section
1681c(g) of this title for such receipt shall not be in
willful noncompliance with section 1681c(g) of this
title by reason of printing such expiration date on the
receipt.
Fed R. Civ. P. 23
(a) Prerequisites. One or more members of a class
may sue or be sued as representative parties on behalf
of all members only if:
(1) the class is so numerous that joinder of all
members is impracticable;
(2) there are questions of law or fact common to
the class;

App-119
(3) the claims or defenses of the representative
parties are typical of the claims or defenses of the
class; and
(4) the representative parties will fairly and
adequately protect the interests of the class.
(b) Types of Class Actions. A class action may be
maintained if Rule 23(a) is satisfied and if:
(1) prosecuting separate actions by or against
individual class members would create a risk of:
(A) inconsistent or varying adjudications
with respect to individual class members that
would establish incompatible standards of
conduct for the party opposing the class; or
(B) adjudications with respect to individual
class members that, as a practical matter,
would be dispositive of the interests of the
other members not parties to the individual
adjudications or would substantially impair
or impede their ability to protect their
interests;
(2) the party opposing the class has acted or
refused to act on grounds that apply generally to
the class, so that final injunctive relief or
corresponding declaratory relief is appropriate
respecting the class as a whole; or
(3) the court finds that the questions of law or
fact common to class members predominate over
any questions affecting only individual members,
and that a class action is superior to other
available methods for fairly and efficiently
adjudicating the controversy. The matters
pertinent to these findings include:

App-120
(A) the class members’ interests in
individually controlling the prosecution or
defense of separate actions;
(B) the extent and nature of any litigation
concerning the controversy already begun by
or against class members;
(C) the desirability or undesirability of
concentrating the litigation of the claims in
the particular forum; and
(D) the likely difficulties in managing a class
action.
(c) Certification Order; Notice to Class
Members; Judgment; Issues Classes; Subclasses.
(1) Certification Order.
(A) Time to Issue. At an early practicable
time after a person sues or is sued as a class
representative, the court must determine by
order whether to certify the action as a class
action.
(B) Defining the Class; Appointing Class
Counsel. An order that certifies a class action
must define the class and the class claims,
issues, or defenses, and must appoint class
counsel under Rule 23(g).
(C) Altering or Amending the Order. An
order that grants or denies class certification
may be altered or amended before final
judgment.
(2) Notice.
(A) For (b)(1) or (b)(2) Classes. For any class
certified under Rule 23(b)(1) or (b)(2), the

App-121
court may direct appropriate notice to the
class.
(B) For (b)(3) Classes. For any class certified
under Rule 23(b)(3)—or upon ordering notice
under Rule 23(e)(1) to a class proposed to be
certified for purposes of settlement under
Rule 23(b)(3)—the court must direct to class
members the best notice that is practicable
under
the
circumstances,
including
individual notice to all members who can be
identified through reasonable effort. The
notice may be by one or more of the following:
United States mail, electronic means, or other
appropriate means. The notice must clearly
and concisely state in plain, easily understood
language:
(i) the nature of the action;
(ii) the definition of the class certified;
(iii) the class claims, issues, or defenses;
(iv) that a class member may enter an
appearance through an attorney if the
member so desires;
(v) that the court will exclude from the
class any member who requests
exclusion;
(vi) the time and manner for requesting
exclusion; and
(vii) the binding effect of a class judgment
on members under Rule 23(c)(3).
(3) Judgment. Whether or not favorable to the
class, the judgment in a class action must:

App-122
(A) for any class certified under Rule 23(b)(1)
or (b)(2), include and describe those whom the
court finds to be class members; and
(B) for any class certified under Rule
23(b)(3), include and specify or describe those
to whom the Rule 23(c)(2) notice was directed,
who have not requested exclusion, and whom
the court finds to be class members.
(4) Particular Issues. When appropriate, an
action may be brought or maintained as a class
action with respect to particular issues.
(5) Subclasses. When appropriate, a class may
be divided into subclasses that are each treated as
a class under this rule.
(d) Conducting the Action.
(1) In General. In conducting an action under
this rule, the court may issue orders that:
(A) determine the course of proceedings or
prescribe measures to prevent undue
repetition or complication in presenting
evidence or argument;
(B) require—to protect class members and
fairly conduct the action—giving appropriate
notice to some or all class members of:
(i) any step in the action;
(ii) the proposed extent of the judgment;
or
(iii) the members’ opportunity to signify
whether they consider the representation
fair and adequate, to intervene and

App-123
present claims or defenses,
otherwise come into the action;

or

to

(C) impose conditions on the representative
parties or on intervenors;
(D) require that the pleadings be amended to
eliminate allegations about representation of
absent persons and that the action proceed
accordingly; or
(E) deal with similar procedural matters.
(2) Combining and Amending Orders. An
order under Rule 23(d)(1) may be altered or
amended from time to time and may be combined
with an order under Rule 16.
(e) Settlement,
Voluntary
Dismissal,
or
Compromise. The claims, issues, or defenses of a
certified class—or a class proposed to be certified for
purposes of settlement—may be settled, voluntarily
dismissed, or compromised only with the court’s
approval. The following procedures apply to a
proposed settlement, voluntary dismissal, or
compromise:
(1) Notice to the Class.
(A) Information That Parties Must Provide
to the Court. The parties must provide the
court with information sufficient to enable it
to determine whether to give notice of the
proposal to the class.
(B) Grounds for a Decision to Give Notice.
The court must direct notice in a reasonable
manner to all class members who would be
bound by the proposal if giving notice is

App-124
justified by the parties’ showing that the
court will likely be able to:
(i) approve the proposal under Rule
23(e)(2); and
(ii) certify the class for purposes of
judgment on the proposal.
(2) Approval of the Proposal. If the proposal
would bind class members, the court may approve
it only after a hearing and only on finding that it
is fair, reasonable, and adequate after considering
whether:
(A) the class representatives and class
counsel have adequately represented the
class;
(B) the proposal was negotiated at arm’s
length;
(C) the relief provided for the class is
adequate, taking into account:
(i) the costs, risks, and delay of trial and
appeal;
(ii) the effectiveness of any proposed
method of distributing relief to the class,
including the method of processing classmember claims;
(iii) the terms of any proposed award of
attorney’s fees, including timing of
payment; and
(iv) any agreement required to
identified under Rule 23(e)(3); and
(D) the proposal treats class
equitably relative to each other.

be

members

App-125
(3) Identifying Agreements. The parties
seeking approval must file a statement
identifying any agreement made in connection
with the proposal.
(4) New Opportunity to be Excluded. If the
class action was previously certified under Rule
23(b)(3), the court may refuse to approve a
settlement unless it affords a new opportunity to
request exclusion to individual class members
who had an earlier opportunity to request
exclusion but did not do so.
(5) Class-Member Objections.
(A) In General. Any class member may object
to the proposal if it requires court approval
under this subdivision (e). The objection must
state whether it applies only to the objector,
to a specific subset of the class, or to the entire
class, and also state with specificity the
grounds for the objection.
(B) Court Approval Required for Payment in
Connection with an Objection. Unless
approved by the court after a hearing, no
payment or other consideration may be
provided in connection with:
(i) forgoing
objection, or

or

withdrawing

an

(ii) forgoing, dismissing, or abandoning
an appeal from a judgment approving the
proposal.
(C) Procedure for Approval After an Appeal.
If approval under Rule 23(e)(5)(B) has not
been obtained before an appeal is docketed in

App-126
the court of appeals, the procedure of Rule
62.1 applies while the appeal remains
pending.
(f) Appeals. A court of appeals may permit an
appeal from an order granting or denying class-action
certification under this rule, but not from an order
under Rule 23(e)(1). A party must file a petition for
permission to appeal with the circuit clerk within 14
days after the order is entered, or within 45 days after
the order is entered if any party is the United States,
a United States agency, or a United States officer or
employee sued for an act or omission occurring in
connection with duties performed on the United
States’ behalf. An appeal does not stay proceedings in
the district court unless the district judge or the court
of appeals so orders.
(g) Class Counsel.
(1) Appointing Class Counsel. Unless a
statute provides otherwise, a court that certifies a
class must appoint class counsel. In appointing
class counsel, the court:
(A) must consider:
(i) the work counsel has done in
identifying or investigating potential
claims in the action;
(ii) counsel’s experience in handling
class actions, other complex litigation,
and the types of claims asserted in the
action;
(iii) counsel’s knowledge of the applicable
law; and

App-127
(iv) the resources that counsel will
commit to representing the class;
(B) may consider any other matter pertinent
to counsel’s ability to fairly and adequately
represent the interests of the class;
(C) may order potential class counsel to
provide information on any subject pertinent
to the appointment and to propose terms for
attorney’s fees and nontaxable costs;
(D) may include in the appointing order
provisions about the award of attorney’s fees
or nontaxable costs under Rule 23(h); and
(E) may make further orders in connection
with the appointment.
(2) Standard for Appointing Class Counsel.
When one applicant seeks appointment as class
counsel, the court may appoint that applicant only
if the applicant is adequate under Rule 23(g)(1)
and (4). If more than one adequate applicant seeks
appointment, the court must appoint the
applicant best able to represent the interests of
the class.
(3) Interim Counsel. The court may designate
interim counsel to act on behalf of a putative class
before determining whether to certify the action
as a class action.
(4) Duty of Class Counsel. Class counsel must
fairly and adequately represent the interests of
the class.
(h) Attorney’s Fees and Nontaxable Costs. In a
certified class action, the court may award reasonable
attorney’s fees and nontaxable costs that are

App-128
authorized by law or by the parties’ agreement. The
following procedures apply:
(1) A claim for an award must be made by motion
under Rule 54(d)(2), subject to the provisions of
this subdivision (h), at a time the court sets.
Notice of the motion must be served on all parties
and, for motions by class counsel, directed to class
members in a reasonable manner.
(2) A class member, or a party from whom
payment is sought, may object to the motion.
(3) The court may hold a hearing and must find
the facts and state its legal conclusions under
Rule 52(a).
(4) The court may refer issues related to the
amount of the award to a special master or a
magistrate judge, as provided in Rule 54(d)(2)(D).

